<html>
<title> - THE CRITICAL ROLE OF FIRST RESPONDERS: SHARING LESSONS LEARNED FROM PAST ATTACKS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






  THE CRITICAL ROLE OF FIRST RESPONDERS: SHARING LESSONS LEARNED FROM 
                              PAST ATTACKS

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2014

                               __________

                           Serial No. 113-71

                               __________

       Printed for the use of the Committee on Homeland Security
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                           U.S. GOVERNMENT PRINTING OFFICE 

90-881 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                            
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     2
  Prepared Statement.............................................     3

                               Witnesses

Mr. John Miller, Deputy Commissioner, Intelligence and 
  Counterterrorism, New York City Police Department, New York, 
  New York:
  Oral Statement.................................................     5
  Prepared Statement.............................................     8
Mr. James H. Schwartz, Chief, Arlington County Fire Department, 
  Arlington, Virginia:
  Oral Statement.................................................    10
  Prepared Statement.............................................    13
Mr. James Hooley, Chief, Boston Emergency Medical Services:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Dr. Brian A. Jackson, Director, Rand Safety and Justice Program, 
  The Rand Corporation:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29

                                Appendix

Questions From Chairman Michael T. McCaul for John Miller........    55
Questions From Chairman Michael T. McCaul for James H. Schwartz..    55
Questions From Chairman Michael T. McCaul for James Hooley.......    56
Questions From Honorable Susan W. Brooks for James Hooley........    57
Questions From Chairman Michael T. McCaul for Brian A. Jackson...    58

 
  THE CRITICAL ROLE OF FIRST RESPONDERS: SHARING LESSONS LEARNED FROM 
                              PAST ATTACKS

                              ----------                              


                        Wednesday, June 18, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, King, Broun, Barletta, 
Hudson, Brooks, Sanford, Thompson, Jackson Lee, Clarke, 
Keating, Payne, and Vela.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The committee is meeting today to examine 
testimony regarding the critical role first responders play in 
the protection of the homeland.
    I now recognize myself for an opening statement.
    The United States continues to face an ever-evolving 
terrorist threat from al-Qaeda, its affiliates, and others. We 
are seeing the rise of radical Islam in Africa, attacks by the 
Taliban in Pakistan and Afghanistan, and the civil war in Syria 
has provided a safe haven for terrorists to train, which is now 
flowing deep into Iraq. As I speak, a terrorist organization 
too extreme for al-Qaeda continues to march towards Baghdad 
leaving a trail of death, looting, and prison breaks.
    These terrorists, and others around the world like AQAP, 
are intent on attacking the homeland. Just as we must continue 
to combat those threats overseas, we must also remain vigilant 
at home and be prepared to respond to attacks that reach our 
shores.
    Today's hearing examines these terrorist events; first 
responder efforts before, during, and after these attacks; and 
the lessons learned.
    Each day, first responders save lives and enhance the 
overall resiliency of our Nation. However, the 9/11 terrorist 
attacks forever changed the role of our emergency response 
providers. Since that day, these brave men and women have been 
the first on the scene during the 2009 shooting at Fort Hood 
and the 2013 Boston Marathon bombing, among others.
    These tragic events remind us of the critical role first 
responders play in the Nation's ability to react quickly, 
whether it be to a terrorist attack or natural disaster. 
Lessons learned from previous efforts are vital to increasing 
our ability to prepare for and respond to future incidents.
    We owe it to these heroes and the American people to focus 
our efforts on doing all we can to ensure first responders are 
properly prepared for whatever catastrophe they encounter. From 
every incident, there are aspects of the response that went 
well and things that can be improved. We can and must learn 
from both.
    This committee was formed in the aftermath of 9/11 to 
better protect the American people against a terrorist attack 
and fulfill its mission by ensuring that first responders, law 
enforcement personnel, and the Department of Homeland Security 
have the capabilities, training, and tools needed to prepare 
for, to prevent, and respond to future attacks.
    In addition to the vital response and recovery mission, 
first responders are critical partners in preventing attacks. 
State and local law enforcement, fire, and emergency medical 
responders know their communities and will be the first to 
identify suspicious behavior and other potential security 
threats. First responders should have access to real-time 
threat and suspicious behavior reports, which are key to 
directing and detecting and stopping terrorism.
    In turn, first responders must have access to all 
applicable Federal information so that they can do their job to 
the best of their ability. This was clear in the tragic Boston 
bombing last year.
    Members of this committee are committed to seeing that the 
recommendations in the Boston Marathon bombing report are 
implemented, and most importantly, that information sharing 
between Federal, State, and local partners is improved.
    I would like to recognize the first responders testifying 
here before us today, as well as those in the audience and 
across the country, for always answering the call. A simple 
``thank you'' is not enough to express our gratitude for your 
efforts to protect the American people.
    Thank you, and I look forward to your testimony.
    With that, the Chairman now recognizes the Ranking Member.
    Mr. Thompson. Thank you very much.
    I want to thank the Chairman for holding today's hearing.
    I also want to recognize the volunteers, first responders, 
and the citizens affected by the powerful tornadoes that ripped 
through the small town of Pilger, Nebraska. In a time of 
catastrophe, such as this, the first responder community runs 
to unsettled and unknown territory while others flee to safety.
    I also thank the witnesses for their service and their 
dedication. Chief Schwartz, Deputy Commissioner Miller, and 
Chief Hooley are gentlemen who deserve commendation for their 
efforts.
    I also thank Dr. Jackson for recognizing their efforts in 
his research.
    Resilience and response are two of the reasons why almost a 
decade after September 11 New York City remains a global 
powerhouse. Resilience and response are two of the reasons why 
over 30,000 military and civilian personnel continue to serve 
at our Nation's defense headquarters in Arlington, Virginia. 
Resilience and response are two of the reasons why a year after 
the Boston Marathon bombing, Boston remains strong.
    Mr. Chairman, as we rightfully commend today's panel, it 
would be a disservice to them not to address one of their main 
needs, which is funding.
    In April this committee held a hearing on the Boston 
Marathon bombing. At that hearing Sergeant Pugliese, of the 
Watertown Police Department, testified that local municipal 
governments are not financially equipped to take on the 
increasing burden of catastrophic attacks, like Boston.
    Last year at the Committee on Homeland Security's first 
hearing on the Boston Marathon bombing former Commissioner 
Davis stated that without grant funding the response would have 
been much less comprehensive than it was, and without the 
exercises supported through the Urban Area Security Initiative 
funding there would be more people who died in those attacks. 
Even today, Chief Schwartz is testifying that Federal grants 
serve as an incentive for bringing all agencies together before 
a terrorist event happens.
    Throughout several Congresses, Members have heard about the 
importance of these grant programs and success stories 
involving them. Accordingly, I urge Members to oppose the 
administration's proposal to morph the Homeland Security Grant 
Program into an all-hazards grant. That proposal would shift 
focus away from supporting State and local efforts to develop 
terrorism-related prevention and preparedness capabilities.
    I am not convinced that the administration's underfunded 
grant consolidation proposal would provide sufficient support 
for first responders across America to build and maintain the 
capabilities necessary to respond effectively. I cannot support 
any grant reform proposal until I am convinced that it would 
provide the support necessary to maintain terrorism 
preparedness capabilities we have spent over a decade building.
    Also I agree with the Chairman that we cannot ignore the 
information sharing between Federal, State, and local 
authorities needs strengthening. Since September 11, 
information-sharing silos that the 9/11 commissioners 
recommended be addressed continue to be exposed after tragic 
events. We need to work together to develop ways to fix this 
problem post-haste.
    Finally, Mr. Chairman, I ask that we continue this 
conversation with the Department of Homeland Security. We will 
hear about the challenges first responders have with working 
with both FEMA and the Office of Intelligence and Analysis, but 
we need to open hearings on what the Department is doing to 
address these matters. In that forum we may find ways that we 
can use our legislative platform to assist both DHS and the 
first-responder community.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             June 18, 2014
    I want to recognize the volunteers, first responders, and the 
citizens affected by the powerful tornadoes that ripped through the 
small town of Pliger, Nebraska. In a time of catastrophe such as this, 
the first responder community runs to unsettled and unknown territory 
while others flee to safety.
    I also thank the witnesses for their service and dedication. Chief 
Schwartz, Deputy Commissioner Miller, and Chief Hooley are gentlemen 
who deserve commendation for their efforts. I also thank Dr. Jackson 
for recognizing their efforts in his research. Resilience and response 
are two of the reasons why almost a decade after September 11, New York 
City remains a global powerhouse. Resilience and response are two of 
the reasons why over 30,000 military and civilian personnel continue to 
serve at our Nation's defense headquarters in Arlington, Virginia. 
Resilience and response are two of the reasons why a year after the 
Boston Marathon bombings, Boston remains strong.
    Mr. Chairman, as we rightfully commend today's panel, it would be a 
disservice to them not to address one of their main needs which is 
funding. In April, this committee held a hearing on the Boston Marathon 
bombing. At that hearing, Sergeant Pugliese of the Watertown Police 
testified that local municipal governments are not financially equipped 
to take on the increasing burden of catastrophic attacks like Boston.
    Last year, at the Committee on Homeland Security's first hearing on 
the Boston Marathon bombings, former Commissioner Davis stated that 
without grant funding, the ``response would have been much less 
comprehensive than it was'' and without the exercises supported through 
Urban Area Security Initiative funding, ``there would be more people 
who died in those attacks.'' And even today, Chief Schwartz is 
testifying that Federal grants serve as an incentive for bringing all 
agencies together before a terrorist event happens.
    Throughout several Congresses, Members have heard about the 
importance of these grant programs and success stories involving them. 
Accordingly, I urge Members to oppose the administration's proposal to 
morph the Homeland Security Grant Program into an all-hazards grant. 
That proposal would shift focus away from supporting State and local 
efforts to develop terrorism-related prevention and preparedness 
capabilities. I am not convinced that the administration's underfunded 
grant consolidation proposal would provide sufficient support for first 
responders across America to build and maintain the capabilities 
necessary to respond effectively. I cannot support any grant reform 
proposal until I am convinced that it would provide the support 
necessary to maintain terrorism-preparedness capabilities we have spent 
over a decade building.
    Also, I agree with the Chairman that we cannot ignore that 
information sharing between Federal, State, and local authorities needs 
strengthening. Since September 11, information-sharing silos that the 
9/11 Commissioners recommended be addressed continue to be exposed 
after tragic events. We need to work together to develop ways to fix 
this problem post haste.
    Finally, Mr. Chairman, I ask that we continue this conversation 
with the Department of Homeland Security. We will hear about the 
challenges first responders have with working with both FEMA and the 
Office of Intelligence and Analysis. But we need open hearings on what 
the Department is doing to address these matters. In that forum, we may 
find ways that we can use our legislative platform to assist both DHS 
and the first-responder community.

    Chairman McCaul. I thank the Ranking Member.
    Other Members are reminded they may submit opening 
statements for the record.
    We are pleased to have a distinguished panel here before us 
today.
    First, Deputy Commissioner John Miller. He is the deputy 
commissioner of intelligence for the New York City Police 
Department. Prior to this position, he was the senior 
correspondent for CBS News.
    Commissioner Miller is also a former ABC News reporter, 
perhaps best known for conducting a May 1998 interview with 
Osama bin Laden. He is a former associate deputy director of 
national intelligence for analytical transformation and 
technology; and he was an assistant director of public affairs 
for the FBI, serving as the bureau's National spokesman.
    Thank you, sir, for being here today.
    Next we have Chief James Schwartz--if we could have some 
water? Chief James Schwartz is the chief of Arlington County 
Fire Department, a position he has held since 2004. The 
Arlington County Fire Department consists of 320 personnel and 
serves a community of 26 square miles and 210,000 residents. 
The department was the lead agency for the response to the 
September 11 attack at the Pentagon.
    Additionally, Chief Schwartz chairs the International 
Association of Fire Chiefs' Committee on Terrorism and Homeland 
Security and served on the advisory council for the Interagency 
Threat Assessment Coordinating Group at the National 
Counterterrorism Center.
    Thank you, sir, for being here today, as well.
    Next we have Chief James Hooley, is the chief of the Boston 
Emergency Medical Services, a public safety agency that 
provides basic life support and advanced life support 
throughout the city of Boston. Boston EMS employs over 350 EMTs 
and paramedics who responded to an average of 300 emergencies 
per day.
    A 32-year veteran of Boston EMS, he was appointed to the 
position in 2010. Prior to that he served as superintendent and 
chief.
    What was left out of here I want to mention is the heroic 
efforts you and your force performed after the tragic events in 
Boston to save so many lives. With 260 maimed and injured, it 
is nothing short of a miracle that none of those maimed and 
injured actually died, and I want to thank you for those heroic 
efforts.
    Finally, Dr. Brian Jackson is senior physical scientist at 
the RAND Corporation, director of RAND's safety and justice 
program, and a professor at Pardee RAND Graduate School. He 
focuses on homeland security, terrorism preparedness, safety 
management, and large-scale emergency response situations.
    The full written statements of the witnesses will appear in 
the record.
    Chairman now recognizes Commissioner Miller for 5 minutes.

 STATEMENTS OF JOHN MILLER, DEPUTY COMMISSIONER, INTELLIGENCE 
  AND COUNTERTERRORISM, NEW YORK CITY POLICE DEPARTMENT, NEW 
                         YORK, NEW YORK

    Commissioner Miller. Congressman McCaul, Congresswoman 
Clarke, Congressman King, Ranking Member Thompson, and Members 
of the committee, in the last 12\1/2\ years since September 11 
the fight against al-Qaeda and its network has uncovered a very 
adaptable enemy that has continued to mature in its ability to 
spread its message as well as shift in its shape and its 
tactics. In response, the law enforcement community across the 
country has had to undergo fundamental changes.
    In New York City, like every city and town, we have had to 
reevaluate everything, from how we gather and analyze 
intelligence to how we plan to police major events. After 9/11 
the New York City Police Department, under the leadership of 
Police Commissioner Ray Kelly, formed two new bureaus--the 
Intelligence Bureau and the Counterterrorism Bureau--to 
spearhead our efforts and Commissioner Bratton as well as Mayor 
de Blasio have made it clear that they would like to continue 
to build on, modernize, and sustain those efforts to protect 
the largest city in America from terrorist activity.
    Today I want to spend a little time discussing lessons 
learned not just from 9/11 but also from other terrorist plots 
since then. Looking at some of the most recent and most 
significant, we take these lessons: We have learned that if al-
Qaeda can find sympathizing people on U.S. soil that they will 
turn them into terrorists, willing and able to attack the very 
country they call home.
    The cases of Najibullah Zazi, in the New York City subways 
plot in 2009, and Faisal Shahzad, the Times Square truck bomb 
plot in 2010, are just two examples of Americans, both 
recruited by al-Qaeda and the Pakistani Taliban, who attempted 
bombing of New York City. Law enforcement and intelligence was 
critical in thwarting those attacks.
    We have also come to learn the power of al-Qaeda's use of 
social media and on-line messaging for operations and 
recruiting and communications. The Boston Marathon bombings, if 
anything, confirmed what we already always suspected, which is 
that major public events with large crowds are going to 
continue to be a terrorist target.
    The instructions likely used by the Boston Marathon bombers 
to make pressure cooker bombs came from the now infamous 
article in al-Qaeda's on-line publication, Inspire magazine, 
``How to Make a Bomb in the Kitchen of Your Mom.'' Those same 
instructions were used by Jose Pimentel in New York City, who 
built bombs intending to blow up military and recruiting 
stations as well as other targets.
    Recent issues of Inspire magazine call for al-Qaeda's 
followers to attack New York City as well as Washington, DC; 
Los Angeles; and Chicago. It is specific as to targets and 
timing.
    The fact that we have seen people accept this call to arms 
reminds us that these threats can emanate from a camp hidden in 
the tribal areas of Pakistan or from an apartment in the 
Washington Heights section of Manhattan.
    Counterterrorism is a major component of city planning and 
requires significant financial investments. Whether it is the 
Israeli Day Parade, which we had just a couple of weeks ago on 
5th Avenue, or the New York City Marathon, each plan comes with 
a complex what we call ``counterterrorism overlay.''
    Some of it you see, some of it is invisible, but all of it 
requires additional equipment, additional officers, 
intelligence analysts, detectives, and investigators. We deploy 
specialized equipment, from radiation detection pagers worn on 
people's belts to detect a dirty bomb or dispersal device 
attack, to a portable network of cameras to scan crowds.
    To that end, I would like to thank this committee, the 
Congress, the President, the Department of Homeland Security 
for the continued critical support to New York City's 
Counterterrorism Grant funding. This funding has played a 
crucial role in helping the NYPD carry out its mission of 
keeping the city and its citizens safe.
    The work and the equipment that goes with it, along with 
the personnel, is very expensive. The Counterterrorism Bureau 
receives money from eight funding streams, including UASI, for 
a total of $169.8 million. We have utilized these funds to 
deploy and develop adaptive approaches to countering threats, 
be they foreign or domestic.
    Two major Federally-supported counterterrorism programs 
that I am talking about refer to:
    The Domain Awareness System: It is an innovative law 
enforcement application that aggregates real-time data from 
counterterrorism sensors and law enforcement databases, 
providing members of the NYPD with a comprehensive view of 
potential threats as well as criminal activities.
    The Securing the Cities Program: This is a program through 
which the NYPD purchases but also distributes radiation 
detection equipment to over 150 law enforcement and public 
safety agencies across the region, providing training, 
conducting exercises, and this develops a region-wide concept 
of operations for radiation detection.
    These programs are critical to protecting New Yorkers, the 
region, and the Nation, and funding them remains an urgent 
priority.
    Information sharing is also crucial to our efforts. 
Regional efforts in training and information sharing among law 
enforcement and first responders provide us with the necessary 
comprehensive response.
    The NYPD is the lead agency for Securing the Cities 
Initiative, that interagency collaboration and capacity-
building effort to protect the metropolitan region from nuclear 
or radiological attack. Examples of information sharing include 
interagency conference calls before major events; interagency 
meetings and tabletops with Federal, State, and local law 
enforcement agencies to discuss potential threats.
    Public-private partnerships are also critical for first 
responders. The Lower Manhattan Security Initiative, or LMSI, 
is a public-private partnership that creates an information-
sharing environment with the private sector, the NYPD, and 
other first responder agencies. This partnership leverages the 
security resources in place at some of the city's most high-
profile target buildings and institutions, but it also forges 
partnerships that will facilitate an integrated response to 
incidents if there is an incident at any of these facilities or 
in that area.
    The NYPD SHIELD program is a partnership with private-
sector security managers with the goal of protecting the city 
from a terrorist attack. SHIELD includes members who work in a 
wide range of critical sectors, including the energy sector, 
and exchange information of concern as regards to terrorism and 
security.
    On the Federal level, our Federal partners at DHS provide 
access to the Homeland Security Data Network, or HSDN, that 
enables information exchanges of both tactical and strategic 
intelligence and other homeland security information. The 
NYPD's partnership with the FBI also provides the NYPD with 
access to National Classified intelligence, but it is also a 
means by which the NYPD can disseminate its own intelligence 
and analysis at the Federal level to other Federal law 
enforcement agencies.
    We continue to train in table-tops, live field exercises 
with multiple agencies to hone our response to the potential of 
another terrorist attack or active-shooter situation, or even 
natural disaster. With every drill, with every exercise, we 
glean lessons to better respond to real-world security threats.
    The lessons learned post-9/11 focus on two key elements I 
have highlighted today. Resources: It takes additional 
resources--specialized equipment, training, and more money--to 
ensure police and first responders can effectively respond to 
events.
    And coordination: We have learned again and again about the 
importance of sharing information and coordinating efforts. 
This is true on the Federal, State, and local level. We are 
safer and stronger when we work together as regions and 
coordinate across a range of first-responder entities.
    The NYPD is a proud partner with the Federal Government in 
combating the threats to our National security. I thank you 
again, and especially this committee, for all your help to 
ensure the safety of the city of New York from these threats, 
and I pass along the thanks of our police commissioner, Bill 
Bratton, and Mayor de Blasio, in your support for those 
efforts.
    [The prepared statement of Commissioner Miller follows:]
                   Prepared Statement of John Miller
                             June 18, 2014
    Thank you Mr. Chairman and Members of the committee.
    In the 12\1/2\ years since the horrific events of September 11, 
2001, the fight against al-Qaeda and its network has uncovered an 
adaptable enemy that has continued to mature in its ability to spread 
its message as well as shift in shape and tactics. In response, the law 
enforcement community has undergone fundamental changes. In New York 
City, like every city and town, we have had to re-evaluate everything 
from how we gather and analyze intelligence, to how we plan for and 
police major public events. After 9/11, the New York City Police 
Department formed two new Bureaus, the Intelligence Bureau and the 
Counterterrorism Bureau, to spear-head our efforts to protect the 
Nation's largest city from terrorist activity.
    Today, we examine the lessons learned not just from the 9/11 
attacks, but also from the 16 other plots devised by al-Qaeda, or from 
those taking its cues, which have targeted New York City. Looking at 
some of the most recent and most significant, we take these lessons.
    In 2009, Najibullah Zazi and three other men plotted to place more 
than a dozen backpacks filled with explosives on the New York subways. 
This plot was intended to kill scores of people and injure many more. 
Zazi traveled with his friends from Queens to Afghanistan in order to 
fight U.S. Forces, however, al-Qaeda recruited them to return to New 
York to launch these attacks once it was discovered that they were 
Americans, flying under the radar, with U.S. Passports that would 
easily allow them to return to the United States. Zazi was trained in 
explosives by none other than Rashid Rauch, who was al-Qaeda's top 
explosives expert at the time. Zazi also met with Saleh al-Somali, al-
Qaeda's chief of external operations. From this case, we have learned 
that if al-Qaeda can find U.S. persons who are willing to fight and die 
in the fields of Afghanistan, they have a greater advantage in turning 
them back to launch attacks on the country they once called home.
    This lesson was reinforced by the case of Faisal Shahzad. He 
traveled to Pakistan in an attempt to join fighters attacking U.S. 
forces in Afghanistan, but the Pakistani Taliban quickly identified him 
as an individual who could return to the United States and fight the 
war in our streets. Shahzad placed a large amount of explosives in an 
SUV in Times Square on May 1, 2010. However, a small technical error in 
his bomb-making saved our crowded Theater District in the streets off 
Times Square from destruction. We also learned from Shahzad that his 
pre-operational surveillance was conducted in a way that was unlikely 
to attract the attention of law enforcement. He chose his target by 
watching crowded conditions on different streets through streaming 
video over the internet from cameras in and around Times Square.
    We have also come to learn the power of al-Qaeda's use of social 
media and on-line messaging to operatives that the terrorist leaders 
will never meet, or in some cases, may never even know are followers.
    Jose Pimentel was a 27-year-old New Yorker who followed al-Qaeda's 
message through its on-line publication, Inspire magazine as well as 
the videos extolling violence by the charismatic al-Qaeda commander 
Anwar al-Awlaki. Al-Awlaki, born in New Mexico, spoke in perfect, 
unaccented English and his call to violence has resonated with a dozen 
plotters in the United States who have sought to kill their fellow 
Americans. Pimentel was arrested by NYPD Emergency Service Unit and 
Intelligence Bureau detectives while putting the final touches on a 
bomb he hoped to use to attack military recruiting stations.
    Mohammed Quazi Nafis came to New York from Bangladesh and, inspired 
by al-Qaeda's magazine and al-Awlaki's videos, he set out to find 
partners to attack New York City's financial hub near Wall Street. He 
parked what he believed to be a thousand-pound bomb, hidden in the back 
of a white van, in front of the U.S. Federal Reserve and placed six 
calls from his cell phone to the number he thought was connected to the 
bomb's detonator. However, he had no idea that the bomb was designed by 
the FBI's New York Joint Terrorist Task Force not to function.
    We learned from the Boston Marathon bombing what we already 
suspected; major public events, which attract large crowds, continue to 
be a terrorist target. The instructions likely used by the Boston 
bombers to make the pressure-cooker bomb came from the now infamous 
article, ``How to Make a Bomb in the Kitchen of Your Mom,'' in Inspire 
magazine. Those same instructions were used by Jose Pimentel in New 
York City.
    Recent issues of Inspire magazine feature stories idolizing the 
Marathon bombers as well as Jose Pimentel. The latest issue contains a 
set of instructions for a car bomb against a backdrop of pictures of 
Times Square. The article calls for those who believe in al-Qaeda's 
message to attack New York as well as Washington DC, Los Angeles, 
Chicago, and other major cities. The fact that we have seen people 
accept this call to arms, and to use the instructions that appear in 
Inspire magazine and similar publications, reminds us that the threat 
from al-Qaeda, whether through its central command, or its prolific 
propaganda machine, is still real. It can emanate from a camp hidden in 
the tribal areas of Pakistan or from an apartment in the Washington 
Heights section of Manhattan.
    This is why it takes additional resources, specialized equipment, 
and more money to police events that used to simply require police 
personnel for crowd and traffic control. Whether it is the Israeli Day 
Parade, the Super Bowl Boulevard events in Times Square this past 
February, or the New York City Marathon, each plan comes with a complex 
counterterrorism overlay that requires additional equipment, officers, 
and investigators. We deploy specialized equipment from radiation 
detection pagers to detect a dispersal device attack to a portable 
network of cameras to scan the crowds. To that end, I would like to 
thank the committee, the Congress, and the Department of Homeland 
Security for the continued support to New York City's counterterrorism 
grant funding. This funding has played a crucial role in helping the 
NYPD carry out its mission of keeping the city and its citizens safe. 
It might be helpful to break that down:
    The Counterterrorism Bureau receives money from 8 funding streams 
and 22 active grants, for a total of $169.8 million. These sources are:
  <bullet> Urban Areas Security Initiative
  <bullet> State Homeland Security Grant
  <bullet> Law Enforcement Terrorism Prevention Program
  <bullet> State Law Enforcement Terrorism Prevention Program
  <bullet> Securing the Cities
  <bullet> Transit Security Grant Program
  <bullet> Port Security Grant Program
  <bullet> National Nuclear Security Administration
    Major Counterterrorism Bureau grant-funded projects include:
  <bullet> Domain Awareness System.--An innovative law enforcement 
        application that aggregates real-time data from 
        counterterrorism sensors and law enforcement databases, 
        providing members of the service with a comprehensive view of 
        potential threats and criminal activity.
  <bullet> Securing the Cities Program.--The NYPD purchases and 
        distributes radiation detection equipment to over 150 law 
        enforcement and public safety agencies across the region, 
        provides training, conducts exercises, and develops a region-
        wide Concept of Operations for radiation detection.
  <bullet> Regional Counterterrorism Training
  <bullet> World Trade Center Campus Security Plan and Environmental 
        Impact Statement.--A comprehensive vehicle security perimeter 
        around the World Trade Center Campus, increasing stand-off 
        distances from the buildings to reduce the risk of catastrophic 
        damage from a vehicle-borne explosive device.
  <bullet> Explosive Detection Equipment Program
  <bullet> Transit Security-Related Programs and Purchases
  <bullet> Port Security-Related Programs and Purchases
    In addition to the grant funding, which is critical to our 
counterterrorism mission, information sharing is also crucial to our 
efforts. Examples of our information-sharing initiatives include:
  <bullet> The Lower Manhattan Security Initiative is a public-private 
        partnership that creates an information-sharing environment to 
        leverage the security resources in place at some of the city's 
        most targeted buildings and institutions and to forge 
        partnerships that will facilitate an integrated response to 
        incidents at these facilities.
  <bullet> The Joint Terrorism Task Force is a natural information-
        sharing environment between stakeholders including 
        investigators, analysts, linguists, and other specialists from 
        dozens of U.S. law enforcement and intelligence agencies.
  <bullet> The NYPD's partnership with the FBI provides the NYPD with 
        access to National Classified intelligence and is also a means 
        by which the NYPD can disseminate its own intelligence and 
        analysis at the Federal level and to other law enforcement 
        agencies.
  <bullet> A representative from the Metropolitan Transit Authority 
        (``MTA''), New York State Courts, Federal Air Marshal Service, 
        U.S. Marshal Service, and the Department of Homeland Security 
        (``DHS'') Federal Protective Services are detailed to the 
        Counterterrorism Division and share information from their 
        respective agencies.
  <bullet> A Senior Intelligence Officer from the DHS Office of 
        Intelligence and Analysis disseminates DHS-generated reporting, 
        information from DHS Fusion Centers, and joint seal products 
        like Joint Intelligence Bulletins.
  <bullet> The NYPD is the lead agency for the Securing the Cities 
        Initiative, an inter-agency collaboration and capacity-building 
        effort to protect the metropolitan region from a nuclear or 
        radiological attack. Examples of information sharing include 
        inter-agency conference calls before major events like the 
        Fourth of July and New Years Eve where Federal, State, and 
        local law enforcement agencies discuss potential threats.
  <bullet> NYPD SHIELD is a partnership with private-sector security 
        managers with the goal of protecting NYC from terrorist attack. 
        SHIELD includes members who work in a wide range of critical 
        sectors, including the energy sector, and exchange information 
        on issues of concern.
  <bullet> DHS provides access to the Homeland Secure Data Network 
        (``HSDN''). HSDN enables information exchange of both tactical 
        and strategic intelligence and other homeland security 
        information up to the SECRET level.
  <bullet> Access to Suspicious Activity Reports.
    Using Homeland Security funding and working with DHS partners in 
research and development, we have expanded our use of ``Vapor Wake 
Dogs'', the bomb detection K-9s that can identify if a suspicious 
package left unattended contains explosives, but can also detect the 
invisible vapor trail that indicates an explosive in a bag or a 
backpack is moving through a crowd on a busy street or public event. We 
have helped in the testing and development of virtual simulators that 
can put officers in ``active-shooter'' situations where they move down 
hallways and face the challenges of identifying shooters, rescuing 
hostages, or dealing with the wounded, while making critical tactical 
decisions. Controllers at the big screen see the same images being 
flashed through the officer's goggles to gauge and critique their 
tactical proficiency. We have applied Federal funding to the 
acquisition of highly-sensitive radiological detection equipment on-
board our helicopters and harbor units that could detect a nuclear 
device aboard a cargo ship miles before it entered New York harbor. We 
continue to train, in table-tops and live field exercises with multiple 
agencies to hone our response to another terrorist attack, active-
shooter situation, or natural disaster. With every drill, with every 
exercise, we glean lessons that will be invaluable if, or more likely 
when, we are faced with one of these real-world challenges in our 
streets.
    I would be happy to answer any questions.

    Chairman McCaul. Please give him our thanks, as well.
    Just for the record, the first city I visited was New York, 
recognizing it is still the biggest target, unfortunately.
    Chairman now recognizes Chief Schwartz for--I am sorry, 
Chief--yes, Schwartz, for an opening statement.

 STATEMENT OF JAMES H. SCHWARTZ, CHIEF, ARLINGTON COUNTY FIRE 
                DEPARTMENT, ARLINGTON, VIRGINIA

    Chief Schwartz. Thank you, Chairman McCaul, Ranking Member 
Thompson, and distinguished Members of the committee. I want to 
thank you all for holding this hearing this morning as we look 
at lessons learned from past incidents of terrorism and devise 
strategies to better prepare our Nation for future events.
    At 9:37 a.m. on September 11, 2001 American Airlines flight 
77 crashed into the Pentagon as part of a large-scale attack 
upon the United States. I arrived on the incident scene at 9:48 
and assumed incident command for the response.
    There was an overwhelming response to the incident that 
included localities from the National Capital Region, the 
Commonwealth of Virginia, and multiple Federal agencies. This 
attack resulted in the deaths of 184 people.
    Additionally, 106 patients received medical care by EMS and 
were transported to local hospitals, care centers, and clinics. 
Of those 106, only one person perished during treatment from 
her injuries received during the attack.
    In the aftermath of that report the county undertook an 
after-action report that was eventually funded by the U.S. 
Department of Justice's Office for Domestic Preparedness. That 
report identified 235 recommendations and lessons learned that, 
along with other after-action reports in the last 13 years, 
have guided decisions that both the Arlington County public 
safety agencies and the National Capital Region have made to 
improve our preparedness levels.
    On 9/11 it was extremely helpful that our fire department 
had a good working relationship--an amazing working 
relationship, I would say--with the FBI's Washington Field 
Office, the Military District of Washington, and other fire and 
rescue departments in the National Capital Region. These pre-
existing working relationships at the incident command level 
and the existing automatic and mutual aid agreements throughout 
the region provided an experienced leadership team and 
necessary resources during the opening minutes of the response. 
In addition, we were able to use the incident command system to 
establish a unified command framework in which other resources 
and agencies could operate.
    The after-action report also identified a number of 
challenges at the incident scene. Despite the coordination at 
the command level, we still had to contend with the challenges 
of self-dispatching and a lack of proper credentialing that--as 
we deployed our resources and strived to establish scene 
security.
    One of our greatest challenges was in effectively triaging, 
treating, and tracking patients during this mass-casualty 
event. As has been well-documented, we had problems with 
operability and interoperability of our public safety 
communication systems, and logistics and resources for a long-
term, large-scale incident proved at that time to be a 
challenge.
    The Nation since then has transformed its emergency 
response system. The Federal Government has now established a 
National Preparedness Goal and 31 core capabilities to prevent, 
protect, mitigate, respond, and recover from a future incident. 
It also sponsored training exercises to improve preparedness 
and coordination at all levels of government. The Federal 
Government has also spent approximately $37 billion since 2002 
on grant programs to support us at the State and local level in 
our preparedness efforts.
    We have made important achievements to improve the 
coordination of response to future acts of terror. The adoption 
of the National Incident Management System allows jurisdictions 
across the Nation to work together during a response. That 
approach and a doctrinaire of using the same incident 
management system has assisted greatly in incidents since 9/11.
    Multidisciplinary exercises bring together Federal, State, 
Tribal, territorial, and local agencies to plan and prepare for 
future events. The grants, such as those that we have already 
heard about from UASI and those from a previous program known 
as MMRS, have long served as incentives to bring stakeholders 
to the table to work on the common goals of preparing our 
communities.
    Since 9/11, one major focus has been the improvement of 
public safety communications. This committee has taken a 
leading role in addressing this issue.
    DHS and its Office of Emergency Communications, and Office 
of Interoperability Compatibility, and SAFECOM program are 
facilitating improved public safety communications 
interoperability. The President and Congress have played a 
major role in improving future public safety communications by 
establishing the First Responder Network Authority and giving 
it the adequate spectrum and funding to establish a Nation-wide 
public safety broadband network.
    Even though there have been many accomplishments since 9/
11, we are still learning to respond to the threat of 
terrorism. For example, there have been many initiatives to 
improve information-sharing between Federal, State, Tribal, and 
local partners.
    However, there are still many barriers. The need for 
security clearances is still a barrier for many fire 
departments to obtain information about threats in their 
communities. In other cases, information may be over-Classified 
or not presented properly for practically-minded first-
responder audience trying to develop capabilities necessary for 
response.
    I want to commend the NCTC's approach to bringing first 
responders into the intelligence community to both share 
information from our perspective at the local level in the wake 
of the sunsetting of the ITACG, the Interagency Threat 
Assessment and Coordinating Group, the National 
Counterterrorism Center established the JCAT, the Joint 
Counterterrorism Assessment Team, that develops intelligence 
products with practical information for first responders and 
their communities.
    We also must continue to focus on reducing barriers to 
collaboration. The NIMS adoption requires a change in culture 
for many organizations and we need to still bridge both the 
organizational and professional biases that are inherent in our 
organizations on a daily basis.
    We should review NIMS training to ensure that all the 
participants in response to an incident are adopting NIMS and 
operating within it. Also, we have to support the current 
efforts to develop effective, Nation-wide credentialing system.
    We also need to make sure that the lessons learned are 
being shared across the homeland security enterprise. The 
Pentagon response demonstrated that important and diligent 
planning and training at a regional-level paid dividends.
    So that all stakeholders can learn from each other, we need 
to develop a clearinghouse for successful uses of grant 
programs and effective policies for countering threats to 
terrorism. In other words, when we have a success somewhere in 
the country, especially when it is a success realized through 
the grant programs, replicating that elsewhere is in everyone's 
best interest.
    We also need to make sure that local first-responder 
agencies are being reimbursed for their mutual aid activities. 
In some cases it has taken years for local agencies to be 
reimbursed for their participation to responses like Hurricane 
Katrina and the October 2007 California wildfires.
    In many jurisdictions budgets remain tight, and a local 
fire and EMS department cannot wait long to be reimbursed. The 
IAFC is concerned that local fire and EMS departments will not 
be as responsive in the future to requests for assistance if 
challenges to reimbursement remain a problem.
    On behalf of the leadership of the Nation's fire and EMS 
service, I again want to thank you for the opportunity to 
testify today. Using the lessons of 9/11 and the 
accomplishments to date from those lessons learned has made the 
Nation, I think, stronger and has improved our overall 
preparedness.
    However, the terrorist threat remains a continuing concern 
of all of ours and we must adapt to those concerns. I look 
forward to answering your questions as the committee hearing 
goes on.
    Thank you.
    [The prepared statement of Chief Schwartz follows:]
                Prepared Statement of James H. Schwartz
                             June 18, 2014
    Good morning, Chairman McCaul, Ranking Member Thompson, and 
distinguished Members of the committee. I am James Schwartz, chief of 
the Arlington County (Virginia) Fire Department (ACFD) and chairman of 
the Terrorism and Homeland Security Committee of the International 
Association of Fire Chiefs (IAFC). The IAFC represents the leadership 
of the Nation's fire, rescue, and emergency medical services (EMS), 
including rural volunteer fire departments, metropolitan career 
departments, and suburban combination departments. I thank the 
committee for this opportunity to discuss lessons learned from past 
incidents of terrorism.
   the response to the incident at the pentagon on september 11, 2001
    At 9:38 a.m. on September 11, 2001, American Airlines Flight No. 77 
crashed into the Pentagon as part of a large-scale terrorist attack 
upon the United States. I arrived on scene at 9:48 a.m. and assumed 
incident command of the response. The main focus in the early hours of 
the response was to control the fires resulting from the crash and 
provide emergency medical care for the victims at the Pentagon. Sadly, 
the attack on the Pentagon claimed the lives of 184 people. Overall, 
the response to the Pentagon incident involved resources from across 
the National Capital Region (NCR), the commonwealth of Virginia, and 
multiple Federal agencies. The Arlington County Fire Department was the 
lead agency for unified command for 10 days and turned over primacy of 
command to the Federal Bureau of Investigation (FBI) on September 21.
    In the early days of the response, Chief Ed Plaugher, my 
predecessor, instituted a process for collecting details of the 
response, so that they could be analyzed to create lessons learned. 
This analysis was produced as an after-action report by the Titan 
Systems Corporation that was funded with the support of the U.S. 
Department of Justice's Office for Domestic Preparedness. The report 
included 235 recommendations and lessons learned. In addition, the 9/11 
Commission also reviewed the response to the attack on the Pentagon and 
made recommendations based on the analysis. The findings of these 
reports have been discussed in articles, conferences, and Congressional 
hearings over the past 13 years.
    Despite the unfortunate loss of life, analysts have described the 
response to the Pentagon attack as being a successful one. During the 
response, 106 patients received medical treatment by area hospitals, 
care centers, and clinics. Of these 106 patients, only one person 
perished during treatment from her injuries.
    During the Pentagon response, there were a number of factors that 
led to a successful response, mitigation, and recovery effort, and a 
number of challenges that the ACFD and other responding agencies faced. 
Among the factors that helped us were four major points:
    (1) The ACFD had strong pre-existing relationships with surrounding 
        jurisdictions and the affected Federal agencies.--Due to years 
        of working together, the ACFD had strong support from the city 
        of Alexandria; Fairfax, Prince William, and Loudoun county fire 
        departments; the Metropolitan Washington Airports Authority; 
        and other departments within the NCR. The FBI Washington Field 
        Office established a fire liaison position in 1998 to work with 
        local fire departments. The close working relationship between 
        FBI Special Agent Chris Combs, a former New York firefighter, 
        and the ACFD incident command staff played an especially 
        beneficial role in ensuring a coordinated response.
    Many of these relationships were developed through planning 
        exercises. For example, the Military District of Washington 
        hosts a major table-top exercise each year, which allows the 
        leaders of Federal and local government organizations to learn 
        to work together. In addition, Arlington County had conducted a 
        May 2001 table-top exercise with military authorities about a 
        scenario which featured a commuter airplane crashing into the 
        Pentagon. This exercise helped the agencies to become familiar 
        both with their own disaster plans and the plans of their 
        military and civilian counterparts.
    (2) Unified command through the Incident Command System ensured an 
        effective response.--Within 3 minutes of the crash, then-
        Battalion Chief Bob Cornwell arrived on scene and established 
        incident command. I arrived within 10 minutes of the crash and 
        assumed incident command. Because the primary agencies 
        responding to the incident all understood the Incident Command 
        System (ICS), we were able to establish incident command within 
        minutes and most of the other supporting agencies were able to 
        operate within the framework. The fire departments in Northern 
        Virginia began using ICS in the late 1980s and the Metropolitan 
        Washington Council of Governments (COG) adopted the National 
        Interagency Incident Management System (NIIMS) in March 2001, 
        so that there already was a common command system in place. 
        While the Military District of Washington has its own command 
        structure, it cooperated with the ACFD as a member of unified 
        command and provided necessary resources.
  <bullet> (3) A well-designed and exercised mutual aid system provided 
        timely resources.--At the time of the incident, and continuing 
        today, Arlington County was a partner in the Northern Virginia 
        Response Agreement wherein the jurisdictions provide automatic 
        aid based on the closest fire and EMS unit, not jurisdictional 
        boundaries. The departments operate under the same standard 
        operating procedures and dispatch protocols. Also, there was a 
        mutual aid agreement between the member governments of COG 
        which was developed following the Air Florida crash in 1982. 
        Finally, there was a State-wide mutual-aid agreement which 
        enabled outlying jurisdictions to respond or to backfill for 
        Alexandria and Fairfax County stations, while their units 
        provided assistance to the ACFD.
  <bullet> (4) The Metropolitan Medical Response System laid the 
        groundwork for successful coordination between emergency 
        response and public health officials.--After the 1995 sarin 
        nerve agent incident in Tokyo, the ACFD realized that American 
        first response agencies did not have the capability to respond 
        to such an attack. At the request of Chief Plaugher and the 
        ACFD leadership, the COG requested Federal assistance in 
        building this capability. By working with the U.S. Public 
        Health Service, the ACFD was able to develop the Nation's first 
        locally-based terrorism response team with a hazardous 
        materials, medical management, and mass-casualty 
        decontamination capability, the Metropolitan Medical Strike 
        Team (MMST). This capability became the Metropolitan Medical 
        Response System (MMRS) and National Medical Response Team. The 
        frequent use of exercises by the MMST and technical rescue 
        teams provided for a coordinated response by the ACFD and 
        surrounding jurisdictions. For example, the Arlington technical 
        rescue team was able to integrate its personnel with the 
        Alexandria team to form three teams of 19 persons each.
    Despite the number of factors that led to a successful response, 
the ACFD also faced a number of challenges. The seven main challenges 
were:
  <bullet> (1) Self-dispatch created problems with the response.--As 
        news of the attack spread throughout the city, first responders 
        from around the NCR arrived on scene to help with the response. 
        These responders began aiding with the response without the 
        request of the incident commander or knowledge of the host 
        organization. In every major incident, self-dispatch is a 
        problem. Unrequested volunteers are well-meaning, but they can 
        complicate response operations by creating confusion at the 
        incident scene. Also, if the incident commander is unaware of 
        their actions, the self-dispatchers can put themselves at risk 
        if they become injured or trapped. For long-term response and 
        recovery operations, self-dispatched volunteers frequently do 
        not come with the necessary food and shelter that they require, 
        which creates an additional burden on the community trying to 
        deal with the existing incident.
  <bullet> (2) Public safety communications were problematic during the 
        Pentagon response.--During the first hours of the response, 
        cell phone networks were jammed, and cellular priority access 
        service was not provided to emergency responders. Radio 
        channels and phone lines to the emergency communications center 
        also were jammed. In addition, there were problems with 
        interoperability between jurisdictions. Pagers and runners 
        proved to be the most effective form of communication. On 
        September 12, the Incident Command Operations Section re-
        organized the fire suppression units into four divisions. This 
        improved communications during the second day of operations.
  <bullet> (3) The Pentagon response identified room for improvement in 
        the emergency medical response.--During the response, triage 
        tags were not used to document the care of victims. In 
        addition, there was no system to document where patients were 
        sent for treatment. The after-action report also identified the 
        need for a clearinghouse hospital to coordinate communications 
        on behalf of the medical community and disseminate patient 
        disposition and treatment information.
  <bullet> (4) Logistics proved to be a challenge during the long-term 
        incident response.--Like many jurisdictions, the ACFD did not 
        have the logistical infrastructure for dealing with an incident 
        of the magnitude or duration of the Pentagon response. The 
        stock of personal protective equipment (PPE), self-contained 
        breathing apparatus (SCBA), batteries, medical supplies, and 
        equipment for reserve vehicles were not sufficient for 
        sustained operations. Fuel was a major requirement: In the 
        first 24 hours, 600 gallons of diesel fuel were consumed. The 
        resupply effort required 12 tractor-trailer loads for shoring 
        operations, more than 5,000 pairs of gloves, thousands of Tyvek 
        hazmat protection suits, and hundreds of respirators, SCBA, and 
        air bottles. The Arlington County government, surrounding 
        jurisdictions, like Fairfax County, and local business and 
        relief organizations provided vital assistance in meeting this 
        challenge.
  <bullet> (5) The need for credible situational information was a 
        challenge during the incident.--During the first 2 days of the 
        response, it was important to get accurate situational 
        information. The Pentagon incident scene had to be evacuated 
        three times in the first 25 hours due to reports of incoming 
        aircraft. These evacuations delayed some of the response 
        operations and caused confusion at the incident scene.
  <bullet> (6) Resources also proved to be a challenge during the 
        response.--The after-action report identified the need for 
        Arlington County to have a facility designed and equipped as an 
        emergency operations center. It also recommended that the 
        Arlington County Police Department upgrade its mobile command 
        unit and that the fire department obtain a mobile command 
        vehicle for on-scene incident management. The report identified 
        improvements that needed to be completed in the emergency 
        communications center to enhance communications and operations 
        during another major incident. In addition, ACFD and other 
        departments did not have access to a deployable supply of mass 
        casualty supplies, which meant that medical supplies had to be 
        taken from EMS units.
  <bullet> (7) The Pentagon response demonstrated the need for a 
        credentialing system for first responders.--During the response 
        and recovery effort, it was important to make sure that 
        authorized first responders had access to the incident scene. 
        Unfortunately, there was no credentialing system to identify 
        personnel and their skills. The DHS has worked on a number of 
        reports and pilot projects over the years to address this 
        system, but it currently remains unresolved. A First Responder 
        Access Card was pilot-tested, but it proved to be too expensive 
        and too hard for jurisdictions to maintain the database. The 
        DHS' Office of Infrastructure Protection has developed a new 
        system with State and local first responders, which has been 
        adopted by four States. Another six States are in the process 
        of adopting it.
                     application of lessons learned
    The Nation has transformed its emergency response system since the 
attack on the Pentagon. The Final Report of the National Commission on 
Terrorist Attacks Upon the United States (also known as the 9/11 
Commission Report) described the events leading up to the 9/11 attacks, 
the attacks themselves, and the response. In addition, it made a number 
of recommendations, many of which Congress has implemented through 
legislation. Overall, Federal, State, and local agencies; the private 
sector; and members of the American public have made many changes over 
the years based on the responses to 9/11 to better prepare the Nation 
for future terrorist threats.
    The Federal Government has become an important partner in the 
effort to prepare for the next terrorist attack. It has established a 
National Preparedness Goal and 31 core capabilities to help the Nation 
to prevent, protect, mitigate, respond to, and recover from an 
incident, whether from natural or human cause. In addition, the Federal 
Government has sponsored training to respond to terrorist attacks, and 
exercises at the Federal, State, Tribal, territorial, and local level. 
The Federal Government also has spent approximately $37 billion since 
2002 on grant programs to help State and local agencies develop the 
training, equipment, and staffing resources required to meet the 
terrorist threat.
    One important development is the adoption of the National Incident 
Management System (NIMS). The NIMS is the comprehensive, Nation-wide 
approach to incident management. Based on the ICS that the fire and 
emergency service uses, it allows jurisdictions around the country to 
work together in response to an emergency. Much as fire departments 
were able to coordinate and respond together during the 9/11 response 
to the Pentagon, response agencies from around the Nation will be able 
to work together to respond to future all-hazards events using NIMS. 
NIMS is scalable and can be used for any National incident, no matter 
the size or duration. The NIMS system is focused on defining core 
terminology and defining resources, so that a fire chief can request an 
asset from anywhere in the United States and have a reasonable 
expectation of what is being received. Federal grant programs provide 
assistance in NIMS adoption, because a grantee must comply with NIMS in 
order to receive grants from the Federal Emergency Management Agency 
(FEMA).
    In addition, there is an improved focus on mutual aid and 
collaboration. Mutual aid from surrounding departments played a major 
role in the response to the Pentagon attack. There is a greater 
emphasis now on multidisciplinary exercises that bring Federal, State, 
Tribal, territorial, and local agencies together to build partnerships 
and prepare for future threats. One of the most important lessons from 
the Pentagon response is that it is important for the leaders and staff 
of Federal, State, Tribal, territorial, and local agencies to work and 
plan before any incident occurs. These existing relationships will 
create an effective response when it is needed. It is important to 
highlight the role that Federal grant programs, such as the Urban Areas 
Security Initiative (UASI) and MMRS, serve as incentives for bringing 
all of the agencies together before a terrorist attack happens.
    One primary focus since the Pentagon incident is the need to 
improve communications interoperability. DHS offices, including the 
Office of Emergency Communications and the Office for Interoperability 
and Compatibility, have played an important role in facilitating 
improved communications between State and local public safety agencies. 
SAFECOM is a Federal effort, led by local first responders, to improve 
multi-jurisdictional and intergovernmental communications 
interoperability. It trains emergency responders to be communications 
unit leaders during all-hazards emergency operations, and coordinates 
grant guidance to use Federal funding to encourage interoperability. 
SAFECOM focuses both on technology and the need for jurisdictions to 
develop an effective command interoperability plan. President Obama and 
Congress also made an important decision to improve future public 
safety communications by setting aside 20 MHz for a dedicated Nation-
wide public safety broadband network and establishing the First 
Responder Network Authority (FirstNet) to govern it as part of the 
Middle Class Tax Relief and Job Creation Act of 2012 (Pub. L. No. 112-
96).\1\
---------------------------------------------------------------------------
    \1\ It is important to note that FirstNet will originally cover 
only broadband data communications, such as streaming video. Local 
first responders will need to continue to rely upon land-mobile radio 
for mission-critical voice communications for at least the next 10 
years.
---------------------------------------------------------------------------
    There also is an increased focus on improving information sharing 
between Federal, State, and local response agencies. The Federal 
Government has helped to fund 78 fusion centers around the Nation that 
serve as focal points for receiving, analyzing, and sharing threat-
related information between Federal, State, local, Tribal, and 
territorial partners. In addition, programs like the Nation-wide 
Suspicious Activity Reporting Initiative and ``See Something, Say 
Something'' campaign allow first responders to report possible threats 
in their jurisdictions.
    At the local level, jurisdictions around the NCR implemented 
changes to improve their response to future terrorist attacks. Funding 
by the UASI program allowed the NCR agencies to develop standardized 
regional capabilities, including mass casualty units and ambulance 
buses; bomb teams; and air units to refill firefighters' SCBAs during 
an incident. The NCR jurisdictions also used UASI funds to interconnect 
the local fiber optic networks into one ``NCR Net.'' This system uses 
the seamless transition of critical data, including computer-aided 
dispatch systems, throughout the region to improve situational 
awareness and reduce emergency call processing time.
                       challenges for the future
    It is important to recognize that, even though the attack on the 
Pentagon took place 13 years ago, we are still learning to respond to 
the threat of terrorism. New threats continuously appear and we must 
adapt to them. For example, while we still must prepare for an 
explosive attack on a major transportation hub or an act of 
bioterrorism, we also have to prepare for the use of fire as a weapon 
in a terrorist attack or an active-shooter assault by a small team as 
happened in Mumbai in 2008 and Nairobi in 2013.
    In recognition of this fact, I would like to raise the following 
issues for the committee's jurisdiction:
  <bullet> (1) We need to continue to focus on NIMS adoption.--One of 
        the keys to any successful response is the ability for various 
        units to communicate and operate together. The adoption of NIMS 
        requires a culture change, and we still need to bridge 
        organizational and professional biases. We need to review NIMS 
        training and ensure that Federal, State, local, Tribal, and 
        territorial partners are all adopting NIMS and operating with 
        it.
  <bullet> (2) We need to make sure that lessons learned are being 
        shared to improve the homeland security enterprise.--We need to 
        better broadcast successful uses of grant programs and 
        encourage the adoption of successful policies. For example, the 
        NCR developed a patient tracking system to track victims' basic 
        information and conditions, which allows them to be distributed 
        to hospitals and tracked throughout their time in the system. 
        If another jurisdiction is interested in developing a similar 
        system, it should be able to find out about it at a 
        clearinghouse instead of having to re-invent the wheel.
    In addition, we should support the development of regional response 
        systems. The Pentagon response relied upon resources throughout 
        the Washington and Northern Virginia areas. This coordination 
        was established years before through the activities of the COG. 
        One of the IAFC's concerns with the National Preparedness Grant 
        Program proposal is its State-centric focus, which we think 
        might break down the sort of regional coordination required to 
        effectively respond to cross-border incidents.
  <bullet> (3) We need to improve information sharing both about the 
        potential for terrorist activity and during an incident.--The 
        attacks on 9/11 exposed a host of information-sharing problems 
        at the Federal, State, Tribal, territorial, and local level, 
        both before and during the incident. During the Pentagon 
        response, the incident scene had to be evacuated three times, 
        due to the perceived threat of another incoming airplane. At 
        least two of these incidents were caused by Federal officials 
        arriving in Washington to help with the Federal response to 
        these attacks. The Federal Government needs to make sure that 
        accurate information is being relayed to the first responders 
        on scene so that they can make the appropriate decisions.
    In addition, problems still remain with the information-sharing 
        enterprise. The need for a security clearance remains a barrier 
        for some fire chiefs to access information. However, once a 
        chief receives information, he or she is limited with what can 
        be done with it, because command staff may not have clearances. 
        In other cases, information may be over-Classified or not 
        written with a practical purpose. The National Counterterrorism 
        Center's (NCTC) Joint Counterterrorism Assessment Team helps to 
        solve this problem by bringing local first responders to the 
        NCTC to work with intelligence analysts to develop intelligence 
        products with practical information that first responders can 
        use to protect their communities. To help fire chiefs better 
        understand how to access threat information for their 
        communities, the IAFC developed the Homeland Security 
        Intelligence Guide for Fire Chiefs.
  <bullet> (4) We need to ensure that local first-response agencies are 
        being reimbursed for their mutual aid activities.--The National 
        Preparedness Goal aims to create a National network of 
        resources and capabilities. However, it is important to 
        recognize that State and local governments spend approximately 
        $218 billion annually for public safety. When a resource is 
        dispatched from a locality across local or State lines to help 
        with a mutual aid response, the local first response agency 
        potentially can lose those resources for weeks and will have to 
        backfill to protect its community. For major emergencies, such 
        as Hurricane Katrina and the October 2007 California wildland 
        fires, a local fire department can be left waiting for months 
        or even years to get reimbursed. In many jurisdictions, budgets 
        remain tight and a local fire and EMS department cannot wait 
        that long to be reimbursed. The IAFC is concerned that fire and 
        emergency departments will not be as responsive to future 
        requests for assistance during major National emergencies if 
        the reimbursement system is not reformed and improved.
                               conclusion
    I would like to thank the committee for the opportunity to discuss 
the response to the Pentagon attack on 9/11 and the lessons learned 
from it. The events of 
9/11 were a terrible tragedy. The Nation has made many improvements to 
its National preparedness system to prevent such a tragedy from 
happening again. However, the terrorist threat continues to adapt, and 
we must adapt to meet it. Both the IAFC and I look forward to working 
with the committee to face these new challenges and protect our 
communities.

    Chairman McCaul. Thank you, Chief Schwartz.
    Chairman recognizes Chief Hooley.

  STATEMENT OF JAMES HOOLEY, CHIEF, BOSTON EMERGENCY MEDICAL 
                            SERVICES

    Chief Hooley. Morning. Chairman McCaul, Ranking Member 
Thompson, and Members of the committee and staff, I want to 
thank you for your invitation to testify today on the critical 
role of first responders and sharing lessons learned from past 
attacks.
    My name is James Hooley. I serve as the chief of department 
at Boston EMS.
    Boston EMS is responsible for the provision of emergency 
medical services for the city of Boston. We are best described 
as a municipal third service EMS system, in that we are part of 
the city's health department and are separate from fire or 
police, who we do work closely with.
    I wish to thank the mayor of Boston, Martin J. Walsh, and 
the executive director of the Boston Public Health Commission, 
Dr. Barbara Ferrer, for their support of my participation here 
today.
    I also want to acknowledge the dedicated EMTs and 
paramedics from across our country, and in particular, the men 
and women of Boston EMS who distinguished themselves on April 
15, 2013 and play a critical role in ensuring the safety and 
health of Boston every day.
    On Patriots' Day--Monday, April 15, 2013--two IEDs were 
detonated 10 seconds apart on the sidewalk of Boylston Street 
in Boston. The sites were crowded with spectators watching the 
Boston Marathon.
    In an instant a large sporting event and day of civic pride 
was transformed into a mass casualty incident. Three persons 
were killed immediately while 118 survivors would require 
transport by ambulance due to the nature of their injuries.
    Within minutes, 30 patients were categorized as critical, 
25 as serious, and the remainder with non-life-threatening 
injuries. Those critical and serious patients were rapidly 
identified, given life-saving treatment, quickly transported to 
hospitals. The patients with lower-acuity injuries were 
transported next. The scene was cleared within 22 minutes and 
the last of the non-acute patients was transported within the 
hour.
    Boston's hospitals enacted their mass casualty operations 
plans to effectively care for this surge of patients. In the 
hours that followed, approximately 260 patients would seek 
medical treatment.
    We acknowledge the loss--excuse me--while acknowledging the 
loss, the pain, and the suffering still felt today by survivors 
and their loved ones, I can say that the medical response to 
this attack was a success. It was successful because of a 
system that was built in Boston which put us in the best 
posture to succeed.
    A lot of things went right. There was extensive pre-event 
planning by public safety, hospital, and public health 
agencies. Those plans were tested in drills and table-top 
exercises. Staging and loading areas had been pre-determined.
    A large contingent of EMS and other first responders--
medical volunteers--were prepositioned for the response, and 
they did not hesitate to render aid and assist with the 
extrication of patients despite the risk of other bombs.
    Interoperability worked. We were able to immediately 
communicate with all the emergency rooms in the city at once. 
We could immediately communicate with several ambulance 
services simultaneously.
    Boston EMS coordinated the triage care and rapid transport 
of 118 individual patients and we distributed them across 9 
area hospitals. Patients were triaged, provided essential life-
saving treatment such as tourniquets, and transport was 
expedited.
    Boston CMED assigned ambulances to hospitals based on their 
capacity and capability. Boston has five Level-1 adult trauma 
centers as well as a Level-1 trauma center that is specific for 
pediatrics.
    Private citizens stepped up and became first responders 
that day. Information sharing was supported by us having a 
medical intelligence center, which was activated.
    There were some issues that did not go as well. In the 
immediate aftermath there was some apprehension and confusion 
as reports of possible other attacks in the city had to be 
investigated. In transporting that many acute patients so 
quickly, many of whom--who had altered mental status or missing 
personal effects, that delayed patient identification.
    In some cases, the rules of privacy and restrictions on 
sharing patient information resulted in delays in reuniting 
patients with their loved ones. This did not impact the 
survivors' care, but the frustration felt by their families 
added to their stress.
    Fortunately, most things did go right that day, but we were 
left to wonder the ``what-ifs.'' What if the attack had 
occurred somewhere else, at a different time of day, or if 
other complicating factors had been present?
    There are valuable lessons learned that I can share.
    Ambulance surge capacity is vital. As I pointed out, half 
the patients required immediate transport. Having sufficient 
ambulances available was life-saving.
    Planning works. The Boston Regional Mass Casualty Plan 
ensures that assisting agencies will have the same language, 
procedures, and equipment. Having sound operational plans with 
realistic assumptions makes those plans adaptable.
    Be prepared. Never assume that an attack, accident, or 
natural disaster won't happen in your city. In fact, assume 
that it will.
    Training works. Over the years we took part in many WMD 
trainings and drills, mass-casualty drills, including training 
with the Boston Police Department to provide EMS in high-turn 
environments, such as bombings or in mass shootings. So when 
the real event did occur, our personnel were rehearsed.
    EMS can operate in unsecured scenes. As in our case, EMTs 
with PPE and trained to understand the risks and taking 
precaution can quickly operate and maximize patient survival 
while under the protection of law enforcement.
    Plan for bystanders to respond. Dozens of bystanders 
stepped in to help that day. Many of them had medical training 
or prior military experience and they were invaluable. We need 
to be able to quickly identify those force multipliers at 
future events.
    In the days and weeks that followed, we worked hard to 
capture the lessons learned. Boston EMS solicited input from 
our members, including a series of after-action meetings that 
we held, and also we had one-on-one interviews.
    We also hosted sessions with our private ambulance partners 
who assisted us. We attended the after-action reviews at Boston 
hospitals to share best practices and what will improve future 
events.
    We are incorporating these lessons learned into planning 
for future events, and many have already been put into 
operation.
    I believe that the Federal Government was very helpful in 
preparing us for the series of events that occurred that week 
in Boston. In the past, Boston has benefitted from State 
Homeland Security grant and MMRS programs.
    In recent years the UASI program has proven to be very 
beneficial at providing training, exercises, PPE, and 
equipment. In Boston the Mayor's Office of Emergency Management 
effectively administers this grant. Investment areas that 
support multiple jurisdictions and disciplines in all hazards 
are the ones more likely to be approved.
    EMS, hospitals, and public health have had significant 
input in the Boston UASI program, and as a result we were all 
better prepared.
    I would ask Congress to continue their support to the UASI 
program, as it has proven value. I would also recommend that 
communities across the country that receive Homeland Security 
grants include EMS, hospitals, and public health, as their 
roles and needs must be represented.
    EMS and health care should also have inclusion within 
fusion centers. Boston EMS has been fortunate to assign one of 
our members to the Boston Regional Intelligence Center since 
2007, and that has served us well.
    Thank you all for the opportunity to address you today, and 
thank you for your on-going efforts in protecting our homeland.
    [The prepared statement of Mr. Hooley follows:]
                   Prepared Statement of James Hooley
                             June 18, 2014
                   boston emergency medical services
    Boston EMS is the lead agency for the provision of emergency 
medical services within the city of Boston, Massachusetts and a bureau 
of the Boston Public Health Commission. As a municipal public safety 
department, Boston EMS is separate from both the Police and Fire 
Departments, but an active partner in the provision of 
9-1-1 emergency services. In 2013, Boston EMS processed 116,637 9-1-1 
emergency medical incidents, resulting in 142,341 ambulance responses 
and 83,144 patient transports to hospital emergency departments. The 
service is comprised of 375 full-time positions, including EMTs and 
paramedics, as well as uniformed supervisors and command staff, 
certified mechanics, support and administrative personnel. In addition 
to the 24 front-line ambulances staffed during peak day and evening 
shifts, Boston EMS is responsible for the city's medical 9-1-1 dispatch 
center, which supports call-taking, dispatching, and managing the 
region's Central Medical Emergency Dispatch (CMED) communication 
between EMS personnel and receiving hospitals.
                    boston marathon and the bombings
    The marathon is one of Boston's largest annual special events, 
although less than 3 miles of the actual course are within the city 
itself. In 2013, there were approximately 27,000 registered runners, 
8,000 volunteers, and hundreds of thousands of observers lining the 
streets along the route. With the finish line in the heart of Boston, 
most medical assets, including both Boston EMS personnel and Boston 
Athletic Association volunteers, were concentrated in this area.
    At 2:49 p.m. the first explosion occurred by the finish line, at 
Copley Square. Ten seconds later the second bomb was detonated. Boston 
EMS personnel assigned to the zone by the finish area were able to 
immediately confirm there had been explosions. This was followed by a 
notification over the radio that ``two devices went off''. All units 
were notified to take extreme caution. Personnel at Alpha Medical Tent 
were told to prepare to receive patients and hospitals were notified 
via a disaster radio that there had been a mass casualty event. Private 
ambulance mutual aid was requested at 2:55 p.m. via the Boston Area 
Mutual Aid network (BAMA) and the first patient was transported at 2:58 
p.m. A total of 118 individuals were transported by ambulance in the 
aftermath of the bombings. Within minutes, 30 patients were categorized 
as critical, 25 as serious and the remainder with non-life threating 
injuries. Those critical and serious patients were rapidly identified, 
given life-saving treatment and quickly transported to hospitals. The 
patients with lower acuity injures were transported next. The scenes 
were cleared in 22 minutes and the last of the non-acute patients was 
transported within the hour. Boston's hospitals enacted their mass 
casualty operations plans to effectively care for this surge of 
patients. In the hours and days that followed, approximately 260 
patients would seek medical treatment.
                            what went right
    While acknowledging the loss, pain, and suffering still felt today 
by survivors and their loved ones, the medical response to the attack 
was a success, serving as a testament to the level of preparedness, 
planning, and training our city and State have achieved. Everyone who 
left the scene alive is still alive today, a remarkable outcome given 
the severity and number injured.
    In exploring what went right, it is imperative to first address the 
circumstantial elements that worked in our favor, such as: (1) The 
proximity of the bombs to ready medical assets, (2) the availability of 
qualified personnel to commence rapid and appropriate triage, 
treatment, and transport, (3) the optimal running conditions, resulting 
in reduced marathon-related illnesses and injuries, allowing resources 
to be appropriately redirected to those injured by the two bombs, (4) 
the incidents occurred immediately before hospital shift change, 
resulting in added staffing in the midst of the patient surge. It is 
also important to note that Boston has 6 level-1 trauma centers, one of 
which exclusively serves pediatric patients (Boston Children's 
Hospital), allowing the most critical patients to promptly receive the 
care they needed. By acknowledging the elements that worked in our 
favor, we recognize the possibility that maybe next time they won't 
(for us or another city), and we plan for it.
    Focusing on the elements of the response where we did have 
influence, it is important to highlight the years of behind the scenes 
planning, coordinating, drilling, exercising and training that allowed 
us to have the best possible outcome, given the circumstance.
Homeland Security Grants
    From the time Homeland Security grants first became available to 
us, both the State and city have worked actively to make the most of 
the opportunities they have afforded. We are grateful for the years of 
State Homeland Security Program and Urban Areas Security Initiative 
funding. Many of the investments we have made with these dollars served 
a direct benefit in response to the bombings, including trainings, 
exercises, equipment, and PPE.
    Emergency management and homeland security grant investments in the 
region have a long-standing history of being inclusive of not only EMS, 
but also non-public safety partners, such as hospitals, health centers, 
long-term care centers, and businesses. With most training, drills and 
exercises being both inter-jurisdictional and inter-disciplinary, the 
response to the bombings was inevitably inclusive and coordinated. 
Personnel utilized shared protocols, shared ICS language, and 
understood what and how they needed to communicate to others and what 
they could depend on them for.
Joint Training and Exercises
    The joint trainings and exercises have been invaluable, not just 
for the experience of the participants, but also the many months of 
planning that bring agencies across disciplines together. Even 
departments that respond jointly on a routine basis, benefit from 
shared trainings and exercises to prepare for the less routine. As an 
example, Boston EMS trains extensively with the Boston Police 
Department SWAT and Bomb Squad units, so that our EMTs and Paramedics 
are appropriately integrated into their responses.
Learning From Others
    Just as others listen and learn from our experiences, we have spent 
the last 2 decades, doing the same with other communities across the 
country and the world. Whether it was the terrorist attacks in London, 
Oklahoma, Madrid, New York, Mumbai, or Columbine; or the natural 
disasters that swept through New Orleans, the Texas coast, and New 
Jersey, we critically examined what we would have done if the same were 
to happen in Boston. We tried to incorporate the successes we saw the 
other first responders implement and did our best to apply their 
lessons learned.
Extensive Inter-Agency Pre-Event Planning
    Meetings to prepare for the race commence a year prior, with an 
extensive array of stakeholders, including emergency management, public 
health, EMS, hospitals, police, and the American Red Cross. Prior to 
the race, the Massachusetts Emergency Management Agency hosts a table-
top exercise focused on a particular disaster scenario/race disruption. 
Through years of exploring what could go wrong, much was done to 
prepare, including pre-identified shelters, staging locations and 
loading areas, in addition to pre-positioned mass casualty supplies. 
Many of the existing plans for the marathon, such as taking all 
critical patients to the back of Alpha Medical Tent, where Boston EMS 
had a designated treatment and ambulance loading area, worked well in 
response to the bombings.
Special Events As Planned Disasters
    Over the years, Boston saw the potential for large-scale special 
events, such as the Boston Marathon, to not only be locations of 
heightened risk for attacks, due to their high-profile nature and large 
crowds, but also serve as opportunities to implement, test, and gain 
familiarity with NIMS and ICS practices. In fact, we began referring to 
special events as ``planned disasters'', given that they inherently 
share many of the same characteristics. Between 1- and 2,000 runners 
seek medical care at a course medical station and/or hospital during 
the Boston Marathon, many partner agencies are involved, streets are 
congested, and access can be compromised. Incorporation of the National 
Incident Management System and the Incident Command System, as well as 
utilizing equipment, resources, and systems designed for large-scale 
emergencies helps with the overall medical consequences of the event. 
And, the experience provides personnel an opportunity to gain 
familiarity with disaster response protocols, a practice that also 
allows for a seamless transition if/when a real emergency arises, 
whether it is an evacuation at the Boston Pops Fourth of July 
celebration, due to a thunderstorm, or terrorist attacks at the Boston 
Marathon.
There Were Ready Medical Assets That Did Not Hesitate to Render Aid
    Understanding both the potential for a significant volume of 
marathon-related illnesses and injuries, as well as the risk for 
something worse, Boston EMS personnel, other first responders and 
medical volunteers were heavily concentrated near the finish area. We 
had nearly a third of our workforce, a total of 116 EMTs and 
paramedics, assigned to Zone 1, the finish area. An additional 13 
ambulances, and associated personnel, were staged at the event and 26 
were working city-side, two above the normal day-shift complement. When 
the bombs exploded there was an immediate shift to mass casualty mode. 
A second device had already detonated and there was a possibility of 
more, yet, there was no hesitation in going directly to the blast sites 
and expediting extraction, care, and transport.
    Boston EMS coordinated the care and rapid transport of 118 
individual patients, distributing them across 9 area hospitals. 
Patients were triaged, provided essential life-saving treatment, such 
as tourniquets, and transport was expedited. Boston CMED then assigned 
ambulances to hospitals based on their capacity and capability.
Interoperability Worked
    When the request was sent for ambulance mutual aid support, the 
response was immediate. With years of coordination and shared training, 
they reported directly to the designated staging area, allowing for 
fluid loading and transport, with the most critical being transported 
first. Similarly, Boston EMS was able to communicated via disaster 
radios to all emergency departments in the city at once, as planned. 
When they received the notification they understood the implications 
and took necessary actions to prepare.
Patient Distribution
    The survival of a patient in critical condition is dependent upon 
receiving appropriate care, making not just rapid transport, but also 
the availability and capability of the hospital, essential. Many post-
disaster best practices have emerged over the years, cautioning the 
tendency to transport to the closest hospital. Taking note, we have 
spent years coordinating with our EMS and hospital partners to plan for 
patient distribution during a multi-casualty incident. At the end of 
the day, no one hospital was overwhelmed by the volume of patients they 
received, in response to the bombs; we consider this to be the best 
measure of successful patient distribution.
                            what went wrong
    Aside from the most egregious wrong, the fact that Boston 
experienced a terrorist attack, three lost their lives, 16 suffered 
amputations and many more were injured; Boston has spent many months 
evaluating how we could have done a better job.
    In the immediate aftermath, there was some apprehension, confusion, 
and reports of other possible attacks. Transporting such a high volume 
of acute patients so quickly, with many unresponsive or missing 
identification, coupled with privacy rule restrictions on sharing 
information, resulted in delays for identifying some patients and 
reuniting them with loved ones. It did not affect the survivors' care, 
but the frustration experienced by their families was real.
    Fortunately, most went right and we were left to wonder the ``what 
ifs'': Had the attacks occurred elsewhere, at a different time of day 
or if other complicating factors had been present. People speak of the 
Boston Standard, but ultimately, the challenge is on us to ensure we 
can meet that standard in other scenarios.
                            lessons learned
EMS Surge Capacity is Vital to Patient Survival During an MCI
    The experiences of April 15, 2013 and the week that followed 
highlighted both strengths and areas for improvement in our public 
safety response capabilities. Speaking from the emergency medical 
services perspective, our greatest success also points to one of our 
most significant challenges. Having experienced and trained 
professionals on scene, able to provide immediate treatment and 
transport saved lives, but this EMS surge capacity was in many respects 
artificial; it is not part of daily operations.
    EMS has a public safety role that complements the Fire and Police 
functions. Regardless whether EMS is embedded within another 
organization, a private agency or a municipal third service, we as a 
country must critically examine its ability surge. As we push health-
care functions to become less costly and more efficient, reducing 
periods of ambulances not being assigned to calls to as close to zero 
as possible, we expose ourselves to a point of self-organized 
criticality, where we can't respond to the ``what-if'' scenarios. We 
are grateful to our private ambulance mutual aid partners, who answered 
the call when we requested their assistance on April 15, but it is 
uncertain where ambulances would come from should an incident happen on 
a different day of the year. Fiscal realities affect municipal as well 
as private ambulance capacity and staffing.
Chance Favors the Prepared
    Louis Pasteur once said, ``chance favors the prepared mind,'' a 
phrase that is well-suited for the field of homeland security. Having 
frequently employed NIMS and ICS protocols in real incident and special 
event response efforts, their use was natural and automatic after the 
explosions. For years, we would imagine the unimaginable and then take 
action to expand our knowledge and capabilities in that area. We have 
hosted conferences on various potential threats, including improvised 
explosive devices, invested in medical supplies for trauma care, spent 
years training and drilling our personnel on triage and mass casualty 
incident response, and participated in multiple full-scale exercises, a 
number of which included blast incident scenarios and lent experience 
to skills in interagency coordination and patient distribution.
    Initially focused on supporting the added logistical challenges 
associated with the central artery tunnel project, known as the Big 
Dig, the Boston EMS Special Operations Division, has evolved into an 
essential element of preparedness within the Department and the city. 
The division coordinates medical consequence resources for over 500 
special events each year, as well as providing logistical support for 
unplanned emergencies. Having such an integral component of the 
Department dedicated to planning for the expected and unexpected, 
fosters a Department-wide culture of preparedness.
Training and Exercises Work
    Department of Homeland Security grant funding has been invaluable 
in supporting inter-disciplinary inter-jurisdictional training and 
exercises. The integration of public safety agencies from multiple 
cities and towns, as well as non-public safety partners, including 
hospitals and public health, has not just increased individual staff 
knowledge, but has also helped agencies understand how to respond 
together in a collaborative manner, respecting each other's roles and 
strengths. The more we are able to provide opportunities for personnel 
to train and exercise together, the more it becomes second nature. We 
are appreciative of a supportive Office of Emergency management, which 
has prioritized such opportunities, and for FEMA for approving them.
    The more responders understand the protocols and priorities of 
other disciplines, the more they are able to work collaboratively, in 
support of a shared success. International Trauma Life Support 
standards promote principals in trauma care for EMS that mirror combat 
care in the military, focusing on rapid assessment, treatment, and 
transport; if public safety partner agencies understand this, they may 
better recognize how they can support this function, such as securing 
routes for ambulance ingress and egress from an incident to maximize 
patient survival.
    In addition to local trainings, I can personally attest to the 
benefit of programs focused on strategic leadership, such as the Naval 
Post Graduate School, Center for Homeland Defense and Security, where I 
joined a cohort of local, State, and Federal representatives, from both 
public and private sectors. This executive-level program provided an 
invaluable opportunity to more critically examine issues in homeland 
security and share lessons learned with other public safety and 
emergency management leaders. This program serves as a reminder of how 
important it is to be continually learning, particularly when we work 
in a field where we are expected to protect the public from ever-
evolving threats.
Planning Works
    In Boston, EMS, hospitals, and public health are well integrated 
into planning teams. Having diverse representation for this component 
helps mitigate false assumptions about a discipline's capabilities and 
serves as an opportunity to communicate priorities that may not be 
readily apparent to others. By seeking value in such partners, 
emergency management has benefited from a broader platform of subject-
matter experts and built a more cohesive and prepared community.
    As a coordinated effort with our private EMS partners, Boston has a 
regional MCI plan. And, all large-scale special events, such as the 
Boston Marathon have a medical consequence plan that is updated and 
reviewed each year. Such plans are successful because they are well-
practiced and adaptable. We can write planning documents, train, 
exercise, and invest in equipment, but ultimately, we have to trust in 
our personnel to improvise, adapt, and overcome. If they can understand 
the end-goal of what they are being asked to do, they won't need a 
scripted step-by-step guide, nor will they be daunted when a component 
of the plan is curtailed. In the case of the response to the bombings, 
we had spent much time establishing a process and protocol for 
designating which hospital each patient would go to; it would be done 
by a loading officer, who would be able to assign patients across the 
hospitals allowing for even distribution. With the two blast sites, the 
rapid load and go of patients and more than one transport location, the 
mechanism by which patients were assigned hospitals immediately changed 
to a role managed by CMED at the dispatch center, where additional 
personnel could support hospital assignments and even distribution 
across the facilities. This was not a senior command-level decision, 
this was everyone understanding the essential nature of successful 
patient distribution and taking necessary action. We have since revised 
our plans for complex incidents to this format.
Intelligence and Information Sharing
    Much has been documented and discussed about the importance of 
strengthening intelligence and information sharing across Federal, 
State, and local partners, as a consequence of the bombings. In 
focusing on this priority, it is important to take a broader look at 
what constitutes the local-level intelligence community. Since 2007, 
Boston EMS has assigned a seasoned paramedic to the Boston Regional 
Intelligence Center (BRIC), the city's fusion center. He has benefited 
from analyst training, offered through Homeland Security investments, 
although the position itself has always been paid for by Boston EMS. 
Having a paramedic assigned to the BRIC helps foster routine 
information sharing, on matters such as narcotic and violence-related 
incidents, and establishes a trusted partnership for sharing threat 
intelligence (as permitted). In addition to better connecting our two 
departments, our paramedic is able to serve as a broader health and 
medical subject matter expert, allowing for a unique perspective and 
contribution. There are public health emergencies that police benefit 
being informed of, public safety matters that may have health and 
medical consequences, and, given the broad scope of patients seen by 
medical providers, there is the potential for EMTs, paramedics, 
doctors, or nurses to identify a potential criminal threat (either 
within the home of a patient or in their symptoms). Having an 
established avenue by which information can be shared across the law 
enforcement and health care community has been proven to have extensive 
benefit. EMS is uniquely qualified to serve as a bridge between the 
public safety and health care communities, as it encompasses both.
    Looking more specifically within the health care community, we 
recognized the need for modeling some of the strengths and benefits of 
an EOC, but with a health and medical focus, allowing the 60-plus 
health and medical departments in Boston, including hospitals, health 
centers, EMS' and public health to better coordinate with each other 
and share information during emergencies. This idea came to fruition 
when we secured Federal grant funding in 2008 to convert a conference 
room into a regional Medical Intelligence Center (MIC). Named after a 
former Boston EMS deputy superintendent, Stephen M. Lawlor, who 
promoted interagency collaboration, the MIC has shown much value over 
the years. During the marathon and the week that followed the bombings, 
health and medical information sharing was supported by public health, 
hospital, and EMS personnel assigned to the MIC.
Responding to an Unsecure Scene
    Every day, EMTs and paramedics risk their lives to save the lives 
of others, whether it is stepping onto an unprotected ledge, being hit, 
bit, spit on, or even shot at. We do what we can to protect our 
personnel, they are trained in self-defense, they are assigned personal 
protective equipment, including ballistic vests, but ultimately, when 
they sign up for the job they understand there is a certain amount of 
risk. When a representative from Israel, who came to speak at a 
conference we hosted, was asked how they sent their personnel into 
unsecure scenes, knowing the risk of secondary devices, he explained 
that ``you do everything you can to prepare them, you try to get them 
in and out as quickly as possible, but ultimately, this is the job they 
signed up for.'' The safety of our personnel will always be paramount, 
but when everything they are taught focuses on caring for the injured, 
we can expect that they will respond. This is what happened on April 
15, everyone knew the risk and they responded. Ensuring EMS personnel 
across the country receive necessary training and personal protective 
equipment is now being recognized more broadly as a priority.
Planning for Others to Respond
    Just as we can expect first responders to enter unsecure scenes 
when there are people in need of medical care and transport, we should 
also plan for members of the public to respond, as we saw on April 15. 
The skills of those who assisted varied, although not having a public 
safety or medical background was not necessarily a limitation, many 
asked what they could do; some were instructed on the application of 
tourniquets and others served vital roles in supporting patient 
movement. During an incident as we experienced in Boston, the initial 
priorities were quite simple: (1) Immediate trauma care, such as the 
application of a tourniquet, if necessary, (2) extraction to a point 
where they can be loaded into an ambulance, and (3) transport to a 
hospital. While assistance can be helpful in the first two steps, it is 
important to ensure others understand that if their presence hinders 
any of these elements, it is best if they stay back. Congestion, 
particularly if it inhibits ingress or egress of ambulances, can have a 
negative consequence for patient survival. Ultimately, the onus is on 
us, members of public safety and homeland security, to ensure it is 
broadly understood that a disaster is defined by the impact to human 
life and that for those suffering traumatic injuries, rapid ambulance 
transport is essential. Plans, trainings, protocols, and guidance 
should focus on supporting these priorities, within the first response 
and emergency management community, as well as with the public at 
large.
The Role of EMS Extends Beyond the Immediate Response to Injuries
    Boston EMS has been asked to speak of the immediate triage, 
transport, and distribution of patients in the aftermath of the bombs, 
but what is less recognized is the role our personnel played in the 
events that continued throughout the week. Department personnel were 
assigned to the blast site for the duration of the road closure and 
every public event that occurred to honor those who were injured; we 
worked in partnership with the Boston Police Department, were on scene 
during each of the captures, and transported both suspects.
The Value of Experienced Personnel
    At Boston EMS, our EMTs have an average of 10 years of experience 
on the job and our paramedics have 25 years. When we invest in 
training, equipment, and exercises, the experience is applied to an 
individual member of the department. Over time, this investment, 
coupled with the skills they garner from years on the job, becomes a 
tremendous asset to the department and the city they serve. By focusing 
on EMS as a career, by fully recognizing EMTs and paramedics as public 
safety officers, we make our communities better prepared for potential 
emergencies of any scale. Boston EMS had over 140 department members 
provide direct care to those injured by one or both of the blasts, 
either directly on scene or while in transport. Even more were involved 
with events that transpired over the following week. Just the one day, 
April 15, represented more traumatic injuries than people with more 
than 30 years on the job have ever seen. In the aftermath of the 
experience, Boston EMS' sick time went down and the injury rate went 
down, people worked harder and worked through what might otherwise have 
kept them out, because they knew they were needed. Having dedicated and 
highly-qualified EMS personnel is something we hope our experience will 
lend broader recognition and appreciation for Nationally. Just as we 
need career police officers and fire fighters, we need career emergency 
medical technicians and paramedics.
                       capturing lessons learned
    Boston EMS hosted two compensated internal 4-hour after-action 
meetings open to all personnel on May 2, 2013, during the day and 
evening shift. A paramedic was assigned to perform more in-depth one-
on-one interviews to capture additional feedback. Personnel were asked 
to submit any additional comments verbally or in writing, if desired. 
An interagency meeting with our private EMS partners, as well as 
attending hospital after-actions, helped us draw from and better 
understand their experiences. A number of other after-action meetings 
took place within the city and State.
 incorporating lessons learned to improve preparation and response to 
                  future (or potential future) events
    When we read about and spoke to the first responders from other 
communities who had just experienced a natural disaster or terrorist 
attack, we thought through what we would have done in a similar 
situation, but also understood that we should add any new best 
practices to our overall all-hazards approach. There were no planes 
that attacked us, no floods, no chemical agents or structural collapse, 
but there were many lessons learned we applied from 9/11, Hurricane 
Katrina and Sandy, the Tokyo Sarin attacks, earthquakes, and tornadoes. 
It is our hope that others hearing about our story, look beyond the 
possibility of a bombing and draw from the many other practices that 
will save lives regardless the nature of the disaster.
    More than anything, the experience validated much of what we were 
already doing. Certain measures wound up working well in response to 
the bombs; if they were not already built into plans, they now are. In 
talking to others, we also learned how their plans were influenced by 
expectations we had established. For example, we spent many years 
coordinating and exercising with hospital partners; this experience 
reinforced the fact that during mass casualty incidents, EMS would use 
triage tags. They grew to expect this and made the determination that 
triage classifications assigned by EMS would be an initial guide for 
prioritizing patients upon receipt. When the first patients did not 
have triage tags, this had a direct impact on the hospitals that we had 
never expected. While the most critical patients were transported 
first, this was an important lesson learned, reinforcing the fact that 
we are integrally connected in the continuum of patient care. Steps 
have now been taken to forward-deploy triage tags during special 
events, to increase the likelihood that tags will be applied to 
patients from the onset, should it become necessary.
                        sharing lessons learned
    To date, presentations and speaking panels have been the principal 
means for communicating our experience, although we hope to complete an 
official after-action report. Homeland Security funding was utilized to 
fund a Massachusetts After-Action and Improvement Plan.
                   the role of the federal government
    Boston EMS has long benefited from Department of Homeland Security 
funding, particularly Urban Areas Security Initiative grants, which 
have paid for training, exercises, and equipment. As a regional grant, 
it has helped foster regional and interdisciplinary coordination and 
standardization. That said, there is currently no requirement to use 
any homeland security grant funding to support EMS. While we have been 
fortunate to have a supportive emergency management office that 
includes EMS, we have not seen that to be consistent when we speak to 
our partners in other parts of the country. We commend FEMA for making 
emergency victim care a priority, but ultimately, without directly 
tying priorities to funding and required outcomes, it is at the 
discretion of the local and State recipients whether or not sufficient 
investment is made to strengthen such capabilities. The funding has 
been invaluable, but the more it can focus on promoting inter-
disciplinary and inter-jurisdictional coordination, the better a 
community will be prepared to handle disasters of all scale and scope.
                      recommendations to congress
    I would also ask Congress to continue support to the UASI program 
as it has proven value. Recognizing that disasters do happen, as much 
as we try to protect against them, it is imperative that homeland 
security be inclusive of EMS and the broader health care community. EMS 
as a discipline and as a critical function needs to be viewed within 
the lens of public safety for the purpose of homeland security. In 
doing so, there will be life-saving benefits on a daily basis, as well 
as during disasters. The fact that emergency medical services may be 
different in each city or town, should not diminish the importance of 
the function and discipline; emergency victim care is vital in any 
disaster; EMTs and paramedics who operate ambulances are the first 
responders.
    I wish to thank Chairman Michael T. McCaul, Ranking Member Bennie 
G. Thompson, the Members of the committee, Boston Mayor Martin J. 
Walsh, and the executive director of the Boston Public Health 
Commission, Dr. Barbara Ferrer for allowing me to submit this written 
testimony.

    Chairman McCaul. Thank you, Chief Hooley. Let me again 
commend you for your life-saving, heroic measures that day in 
Boston.
    Chairman now recognizes Dr. Jackson.

   STATEMENT OF BRIAN A. JACKSON, DIRECTOR, RAND SAFETY AND 
             JUSTICE PROGRAM, THE RAND CORPORATION

    Mr. Jackson. Thank you.
    Chairman McCaul, Ranking Member Thompson, and Members of 
the committee, thank you for inviting me to testify this 
morning and to be part of such a distinguished panel.
    In my written testimony I address three areas where 
Congress can play a significant role in maintaining the 
National preparedness and response system that supports first 
responders to future incidents, and which lessons from past 
response operations indicate should still be important 
priorities: The need for better ways to assess and measure 
preparedness, continuing to support and improve upon programs 
that protect emergency responders' health and safety at large-
scale incidents, and improving the adaptability and agility of 
the National response system by more effectively learning 
lessons from the preparedness exercises that we have heard 
about held at the local level to tell us about the National 
response system.
    Action in these areas via Congressional support and 
oversight could contribute to better preparing the country to 
contain the human and financial costs of future attacks, 
incidents, and natural disasters. In my oral remarks I will 
focus on the first two of these.
    The men and women of the fire service, law enforcement, 
emergency medical services, and the wide range of other 
Government and non-Government organizations that are called on 
for often large and very complex response operations are 
absolutely central to the Nation's ability to deal with a 
future that will always be uncertain and will always hold the 
risk of terrorist attack, natural disaster, and other damaging 
incidents.
    These organizations play that role while also responding to 
the much smaller-scale everyday emergencies that affect their 
jurisdictions and populations, the demands of which already 
stretch some of these organizations' resources.
    To enable responders to do their jobs during large-scale 
incidents and attacks it is critical that the National 
Preparedness System, from the Federal to the local level, work 
together and support them effectively. Concerns regarding the 
performance of that system led to substantial legislative and 
executive actions in the wake of both September 11 and the 
Hurricane Katrina in 2005.
    Performance at subsequent response operations has 
demonstrated that these actions have produced significant 
improvements in National preparedness, and the contrast between 
well-executed recent responses like Boston or to Hurricane 
Sandy and to Hurricane Katrina is striking.
    However, trends in both the future risk environment--
particularly increasing numbers of large-scale, response-
intensive natural disasters--and a challenging fiscal 
environment, that we have heard about, is putting pressure on 
response organizations, emphasize the importance of continued 
focus on the health and functioning of the National response 
system. Given such challenges, there are areas where 
Congressional focus would be valuable, and I will discuss two 
of these that have been the subject of significant RAND 
research.
    First, the issue of improved evaluation and preparedness 
assessment. To support first responders at large incidents 
there needs to be a clear picture of the capabilities of the 
National Preparedness System. Significant strides in 
preparedness measurement have been made since 2001 by both the 
Department of Homeland Security and the Department of Health 
and Human Services, but this is not yet a solved problem, as 
recent GAO reports have highlighted.
    Effective measures are necessary to have confidence that 
the National Preparedness System will be able to support first 
responders and also to educate the public about what they 
should and should not expect when disaster strikes. Measurement 
becomes even more critical under fiscal austerity, since 
without good measures it is difficult to have an educated 
public debate about preparedness and make trade-offs with a 
clear understanding of the implications of funding allocation 
choices.
    Second, protecting the safety of emergency responders. 
Responders clearly take risks as the assist others, and the 
Nation relies on them to do so. Providing both the necessary 
equipment and safety management structures to minimize risk to 
them is not just the right thing to do, it is in the Nation's 
interest as well.
    The experience of 9/11 and the extensive health impacts on 
many responders to those attacks have demonstrated the 
significant personal, organizational, and financial costs that 
can result. Since 2001 there has also been major progress on 
improving safety management for response operations, coming out 
of focused efforts to learn from those responses and others.
    There have been broad efforts involving a wide range of 
organizations to improve both the doctrine and practice of 
safety management, including processes for monitoring health 
and safety of responders before, during, and after deployment 
at large-scale response operations. However, the experience at 
the Deepwater Horizon oil spill response and cleanup has shown 
that challenges remain.
    In conclusion, the Nation obviously relies on first 
responders to act and act effectively when major incidents and 
terrorist attacks occur while simultaneously responding to all 
of the emergencies that occur on a daily basis. For the Nation 
to be prepared for large-scale events, the National 
Preparedness System needs to effectively support those 
initially local responders who will always be the first ones on 
the scene.
    Again, Chairman McCaul, Ranking Member Thompson, and 
Members of the committee, thank you for inviting me to submit 
testimony on this important issue.
    [The prepared statement of Dr. Jackson follows:]
                 Statement of Brian A. Jackson \1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a non-
profit research organization providing objective analysis and effective 
solutions that address the challenges facing the public and private 
sectors around the world. RAND's publications do not necessarily 
reflect the opinions of its research clients and sponsors.
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT211.html.
---------------------------------------------------------------------------
                             June 18, 2014
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for inviting me to testify this morning and to be 
a part of such a distinguished panel.
    Today I am going to talk to you about three areas where Congress 
has a significant role in maintaining the National preparedness and 
response system that supports first responders to future incidents--and 
where lessons from past response operations indicate a continuing need 
for focused attention:
  <bullet> Developing better ways to assess and measure preparedness to 
        maintain both responders' and public confidence that the 
        National preparedness system will be there when they need it;
  <bullet> Improving the adaptability and agility of the National 
        response system by more effectively learning lessons from 
        preparedness exercises;
  <bullet> Continuing to support and improve upon capabilities and 
        programs that protect emergency responders' health and safety 
        at large-scale incidents and disaster responses.
    Action in each of these areas--via Congressional support and 
oversight--can contribute to both better supporting responders to 
future incidents and to better preparing the country to reduce the 
human and financial costs of future attacks, incidents, and natural 
disasters.
    The major incidents the country has faced in recent years--
including both terrorist attacks and others--clearly demonstrate the 
critical role played by first responders in containing such events and 
addressing their consequences. The men and women of the fire service, 
law enforcement, emergency medical services, and the wide range of 
other Government and non-Government organizations that are called on 
for often large and very complex response operations are absolutely 
central to the Nation's ability to deal with a future that will always 
be uncertain and always hold the risk of terrorist attack, natural 
disaster, and other damaging incidents. And the responder community 
plays that role while responding on a daily basis to the much smaller 
scale, every day emergencies that affect their jurisdictions and the 
populations they protect, the demands of which already stretch some of 
these organizations' available resources.\3\
---------------------------------------------------------------------------
    \3\ For example, Kellerman, A.L., What Should We Learn from Boston? 
CT-395, Santa Monica, CA: RAND Corporation, 2013.
---------------------------------------------------------------------------
    To enable responders to do their jobs during future large-scale 
incidents and attacks, it is critical that the National preparedness 
system--from the Federal to the local level--work together and support 
them effectively. Concerns regarding the performance of that system led 
to substantial legislative and executive actions in the wake of both 
the September 11, 2001 attacks and Hurricane Katrina in 2005. 
Performance at subsequent response operations has demonstrated that 
those actions have produced significant improvements in National 
preparedness.\4\ The contrast between well-executed recent responses 
like those in Boston or to Hurricane Sandy and the response to 
Hurricane Katrina is striking.
---------------------------------------------------------------------------
    \4\ Department of Homeland Security, Office of the Inspector 
General, ``FEMA's Preparedness for the Next Catastrophic Disaster--An 
Update,'' OIG-10-123, September 2010; Dodaro, G.L., ``Department of 
Homeland Security: Progress Made and Work Remaining in Implementing 
Homeland Security Missions 10 Years after 9/11,'' GAO-11-940T, 
September 8, 2011.
---------------------------------------------------------------------------
    However, two trends emphasize the importance of continued focus on 
the health and functioning of the National response system:
  <bullet> The first is that responders' tasks and missions are not 
        getting any easier over time. Statistics on large-scale natural 
        disasters requiring substantial response efforts show an 
        increasing trend, requiring more extensive--and more 
        expensive--response operations.\5\ Concern about terrorist 
        attacks has also remained prominent in the years since 2001, 
        with cases like the attacks in Boston demonstrating the unique 
        response challenges of such incidents. First-responder 
        organizations have also been challenged by other incidents of 
        mass violence, with their own distinct response demands.
---------------------------------------------------------------------------
    \5\ Smith, A.B. and R.W. Katz, ``US billion-dollar weather and 
climate disasters: data sources, trends, accuracy and biases,'' Natural 
Hazards, Volume 67, Issue 2, 2013, pp. 387-410; Department of Homeland 
Security, Office of the Inspector General, ``FEMA's Preparedness for 
the Next Catastrophic Disaster--An Update,'' OIG-10-123, September 
2010; Kostro, S.S., A. Nichols, A. Temoshchuk, ``White Paper on U.S. 
Disaster Preparedness and Resilience: Recommendations for Reform,'' 
Washington, DC: CSIS, August 27, 2013.
---------------------------------------------------------------------------
  <bullet> Second, the Nation has also just gone through the most 
        serious financial and economic crisis in recent history. During 
        and after the crisis, fiscal austerity at the State and local 
        level drove reductions in budgets of responder organizations--
        with predictable effects.\6\ In recent years Federal spending 
        in this area has also declined,\7\ and there is significant 
        concern about controlling Federal expenditures going forward. 
        Though a robust debate about the right amount to spend on 
        preparedness efforts is worthwhile and appropriate, resource 
        constraints nonetheless do represent a challenge to maintaining 
        and further strengthening National preparedness.
---------------------------------------------------------------------------
    \6\ Department of Justice, Office of Community Oriented Policing 
Services, ``The Impact of the Economic Downturn on American Police 
Agencies,'' October 2011; Police Executive Research Forum, ``Policing 
and the Economic Downturn: Striving for Efficiency Is the New Normal,'' 
February 2013; Cooper, M., ``Struggling Cities Shut Firehouses in 
Budget Crisis,'' New York Times, August 26, 2010.
    \7\ Pines, J.M. et al., ``Value-Based Models for Sustaining 
Emergency Preparedness Capacity and Capability in the United States,'' 
The Institute of Medicine Forum on Medical and Public Health 
Preparedness for Catastrophic Events, January 2014.
---------------------------------------------------------------------------
    Given such concerns about both the future risk and fiscal 
environment, there are areas where Congressional focus on the National 
preparedness system would be valuable. I will highlight three that have 
been the subject of significant RAND research:
  <bullet> Improved evaluation and preparedness assessment.--To support 
        first responders to major incidents, there needs to be a clear 
        picture of the capabilities of the National preparedness 
        system. Department of Homeland Security (DHS) and Department of 
        Health and Human Services (DHHS) have made significant strides 
        in preparedness measurement since 2001, including the 
        development of the National Preparedness Report and the 
        National Health Security Preparedness Index.\8\ Efforts by 
        nongovernmental organizations and analysts have also 
        contributed.\9\ Nonetheless, recent reviews by the Government 
        Accountability Office have identified areas where improvement 
        is needed.\10\ That this is not yet a fully-solved problem 
        should not be a surprise, given the complexity of evaluating 
        the ability of diverse sets of response organizations across 
        the country to come together and effectively respond to 
        incidents as varied as floods, active-shooter incidents, and 
        bioterrorist attacks. Work at RAND on these challenges has 
        argued that evaluations must distinguish between response 
        systems' theoretical capacity to respond (based on the 
        resources that have been put in place) and whether they will be 
        able to reliably deliver capabilities in the uncertain post-
        disaster environment.\11\ Though much more difficult to 
        measure, it is the ability to reliably deliver capability that 
        is the true measure of preparedness.
---------------------------------------------------------------------------
    \8\ Maurer, D.C., ``National Preparedness: FEMA Has Made Progress, 
But Additional Steps Are Needed to Improve Grant Management and Assess 
Capabilities,'' GAO-13-637T, June 25, 2013; Department of Homeland 
Security, ``National Preparedness Report,'' March 30, 2013; Centers for 
Disease Control and Prevention, ``Public Health Preparedness: 
Mobilizing State by State,'' February 2008; ``National Health Security 
Preparedness Index,'' on-line at http://www.nhspi.org/.
    \9\ For example, National Association of County and City Health 
Officials, ``Indicators of Progress in Local Public Health 
Preparedness,'' May 2008.
    \10\ Jenkins, Jr., W.O., ``Measuring Disaster Preparedness: FEMA 
Has Made Limited Progress in Assessing National Capabilities,'' GAO-11-
260T, March 17, 2011; Caldwell, S., ``Homeland Security: Performance 
Measures and Comprehensive Funding Data Could Enhance Management of 
National Capital Region Preparedness Resources,'' GAO-13-116R, January 
25, 2013; Maurer, D.C., ``National Preparedness: FEMA Has Made 
Progress, But Additional Steps Are Needed to Improve Grant Management 
and Assess Capabilities,'' GAO-13-637T, June 25, 2013.
    \11\ Jackson, B.A., The Problem of Measuring Emergency 
Preparedness: The Need for Assessing ``Response Reliability'' as Part 
of Homeland Security Planning, OP-234-RC, Santa Monica, CA: RAND 
Corporation, 2008; Nelson, C. et al., ``Conceptualizing and Defining 
Public Health Emergency Preparedness,'' Am J Public Health, Volume 97 
(Suppl 1), 2007, pp. S9-S11; Jackson, B.A., K.S. Faith, H.H. Willis, 
``Are We Prepared? Using Reliability Analysis to Evaluate Emergency 
Response Systems,'' Journal of Contingencies and Crisis Management, 
Volume 19, Issue 3, 2011, pp. 147-157; Jackson, B.A., K.S. Faith, H.H. 
Willis, Evaluating the Reliability of Emergency Response Systems for 
Large-Scale Incident Operations, MG-994-FEMA, Santa Monica, CA: RAND 
Corporation, 2010; Jackson, B.A., K.S. Faith, ``The Challenge of 
Measuring Emergency Preparedness: Integrating Component Metrics to 
Build System-Level Measures for Strategic National Stockpile 
Operations,'' Disaster Medicine and Public Health Preparedness, Volume 
7, Issue 1, 2013, pp. 96-104.
---------------------------------------------------------------------------
    The need for measurement is tied to good Government goals, 
        including the effective management of Federal investments in 
        preparedness.\12\ But the need for preparedness measurement 
        goes beyond questions of management and accountability. 
        Measures are necessary to have confidence that the National 
        preparedness system will be able to support first responders in 
        the future, and to educate the public about what it should--and 
        should not--reasonably expect when disaster strikes. 
        Measurement becomes even more critical under fiscal austerity, 
        since without good measures it is difficult to have an educated 
        public debate about preparedness and make trade-offs with a 
        clear understanding of the implications of funding allocation 
        choices.
---------------------------------------------------------------------------
    \12\ ``Are We Prepared? Measuring the Impact of Preparedness Grants 
Since 9/11,'' Hearing Before the Senate Committee on Homeland Security 
and Governmental Affairs, Subcommittee on Emergency Management, 
Intergovernmental Relations, and the District of Columbia, June 25, 
2013, on-line at http://www.hsgac.senate.gov/subcommittees/emdc/
hearings/are-we-prepared-measuring-the-impact-of-preparedness-grants-
since-9/11.
---------------------------------------------------------------------------
  <bullet> Supporting agility and continuous improvement in the 
        preparedness system.--Maintaining preparedness in the face of 
        evolving risks requires mechanisms for identifying lessons from 
        past response operations and applying them to improve 
        preparedness Nation-wide. However, just relying on what we can 
        learn from actual response operations is not enough to 
        adequately prepare for uncertain future threats.
    Exercises and drills--for example, those carried out under the DHS' 
        Homeland Security Exercise and Evaluation Program \13\ or DHHS' 
        public health preparedness cooperative agreements \14\--are 
        held as part of individual jurisdictions' preparedness 
        programs.\15\ Beyond just contributing to bolstering 
        preparedness where they are held, such exercises can be a 
        source of insight into preparedness more broadly to guide 
        National improvement efforts. In past RAND work examining 
        exercise design, we have developed and recommended approaches 
        to make it possible for exercises to produce more useful 
        information to inform assessment and improvement efforts.\16\ 
        Similarly, our research analyzing the after-action reports from 
        both exercises and incident response operations has 
        demonstrated they too can be a source of insights--a source 
        which to date has not been fully utilized--on the health of the 
        National preparedness system.\17\ Measuring the effectiveness 
        of efforts to disseminate lessons learned to the many 
        organizations within the National response system (e.g., DHS's 
        Lessons Learned Information Sharing System \18\) also merits 
        attention--since lessons not effectively disseminated and 
        applied are not actually lessons learned from a system 
        perspective.
---------------------------------------------------------------------------
    \13\ ``Homeland Security Exercise and Evaluation Program,'' https:/
/www.llis.dhs.gov/hseep.
    \14\ ``Funding and Guidance for State and Local Public Health 
Departments,'' http://www.cdc.gov/phpr/coopagreement.htm.
    \15\ For example, Dausey, D.J., J.W. Buehler, N. Lurie, ``Designing 
and conducting tabletop exercises to assess public health preparedness 
for manmade and naturally occurring biological threats,'' BMC Public 
Health, Volume 7, 2007, pp. 92-101; Biddinger, P.D. et al., ``Public 
Health Emergency Preparedness Exercises: Lessons Learned,'' Public 
Health Reports, Volume 125 (Suppl 5), 2010, pp. 100-106.
    \16\ Jackson, B.A., and S. McKay, ``Preparedness Exercises 2.0: 
Alternative Approaches to Exercise Design That Could Make Them More 
Useful for Evaluating--and Strengthening--Preparedness,'' Homeland 
Security Affairs, Volume VII, 2011; Nelson, C. et al., New Tools for 
Assessing State and Local Capabilities for Countermeasure Delivery, TR-
665-DHHS, Santa Monica, CA: RAND Corporation, 2009; Jones, J.R., et 
al., ``Results of Medical Countermeasure Drills Among 72 Cities 
Readiness Initiative Metropolitan Statistical Areas, 2008-2009,'' 
Disaster Medicine and Public Health Preparedness, Volume 6, Issue 4, 
2012, pp. 357-362; Jackson, B.A., K.S. Faith, ``The Challenge of 
Measuring Emergency Preparedness: Integrating Component Metrics to 
Build System-Level Measures for Strategic National Stockpile 
Operations,'' Disaster Medicine and Public Health Preparedness, Volume 
7, Issue 1, 2013, pp. 96-104 (and references therein).
    \17\ Faith, K.S., B.A. Jackson, and H. Willis, ``Text Analysis of 
After Action Reports to Support Improved Emergency Response Planning,'' 
Journal of Homeland Security and Emergency Management, Volume 8, Issue 
1, December 2011 (see also more recent similar work by others in 
Savoia, E., F. Agboola, P.D. Biddinger, ``Use of After Action Reports 
(AARs) to Promote Organizational and Systems Learning in Emergency 
Preparedness,'' Int. J. Environ. Res. Public Health, Volume 9, 2012, 
pp. 2949-2963.)
    \18\ ``Lessons Learned Information Sharing,'' https://
www.llis.dhs.gov/.
---------------------------------------------------------------------------
  <bullet> Protecting the safety of emergency responders.--Lessons 
        learned from past response operations have also demonstrated 
        the importance of providing first responders at major incidents 
        the protection they need to fulfill their critical roles. 
        Responders clearly take risks as they assist others, and the 
        Nation relies on them to do so. Providing the necessary 
        equipment and safety management structure to minimize risks to 
        them is not just the right thing to do, it is in the Nation's 
        interest as well. The experience of September 11, 2001 and the 
        extensive health impacts on many responders to those attacks 
        have demonstrated the significant personal, organizational, and 
        financial costs that can result from the risks involved in some 
        response operations.
    Since 2001, there has been significant progress on improving safety 
        management for response operations, coming out of focused 
        effort to learn from past responses. RAND, in collaboration and 
        with the support of the National Institute for Occupational 
        Safety and Health, facilitated a set of research projects to 
        gather responder safety lessons from those and previous 
        response operations.\19\ The resulting products have 
        contributed to broader efforts involving many organizations and 
        agencies to significantly improve responder safety management 
        doctrine and practice,\20\ including processes for monitoring 
        the health and safety of responders before, during, and after 
        deployment at large-scale response operations.\21\ However, the 
        experience at incidents such as the Deepwater Horizon oil spill 
        response and clean-up \22\ has shown that challenges remain in 
        effectively protecting responders at large-scale incidents.
---------------------------------------------------------------------------
    \19\ Jackson, B.A., et al., Protecting Emergency Responders: 
Lessons Learned from Terrorist Attacks, CF-176-OSTP/NIOSH, Santa 
Monica, CA: RAND Corporation, 2002; Jackson, B.A., et al., Protecting 
Emergency Responders, Volume 3: Safety Management in Disaster and 
Terrorism Response, MG-170-NIOSH, Santa Monica, CA: RAND Corporation, 
2004.
    \20\ For example, ``National Response Framework,'' http://
www.fema.gov/national-response-framework; ``Emergency Response 
Resources,'' http://www.cdc.gov/niosh/topics/emres/responders.html; 
``Emergency Preparedness and Response,'' https://www.osha.gov/SLTC/
emergencypreparedness/; National Response Team, ``Health and Safety,'' 
http://www.nrt.org/.
    \21\ ``Emergency Responder Health Monitoring and Surveillance,'' 
http://www.cdc.gov/niosh/topics/erhms/.
    \22\ Kitt, M.M. et al., ``Protecting Workers in Large-Scale 
Emergency Responses: NIOSH Experience in the Deepwater Horizon 
Response,'' Journal of Occupational and Environmental Medicine, Volume 
53, Number 7, July 2011, pp. 711-715; Michaels, D. and J. Howard, 
``Review of the OSHA-NIOSH Response to the Deepwater Horizon Oil Spill: 
Protecting the Health and Safety of Clean-up Workers,'' PLoS Currents, 
July 18, 2012.
---------------------------------------------------------------------------
    The Nation relies on first responders to act, and act effectively, 
when major incidents and terrorist attacks occur--and to do so while 
simultaneously responding to the much smaller-scale emergencies and 
crises that occur on a daily basis. For the Nation to be prepared for 
large-scale events, the National preparedness system--made up of 
agencies and individuals from the Federal to the local level, inside 
and outside Government--needs to effectively support the initially 
local responders who will always be the first on the scene.
    Congress, through its oversight role, can contribute to 
strengthening both the efficiency and effectiveness of the National 
preparedness system by continuing to support and to encourage agency 
programs focused on improved preparedness measurement and evaluation, 
increasing focus on improving the value and effectiveness of 
preparedness exercises, and supporting on-going efforts to improve 
protection of responders at large-scale response operations.
    Again, Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for inviting me to submit testimony on this very 
important National issue.

    Chairman McCaul. Thank you, Dr. Jackson.
    Chairman recognizes himself for 5 minutes for questions.
    Commissioner Miller, you and I discussed in the back room 
about the rising threat that we see. It seems like with every 
briefing I get the threat seems to be getting worse overseas, 
and I believe that with that, too, comes a greater threat to 
the homeland.
    One only need turn on the television today to realize what 
we have realized for the past year, and that is there is a 
growing al-Qaeda presence and training ground in Syria and Iraq 
that I believe is rivaling if not surpassing what we saw in 
Pakistan and Afghanistan. ISIS--and it very much concerns me.
    We are very privileged to have someone from New York; 
Arlington, where the Pentagon was struck; and of course, 
Boston--the three biggest targets that we have seen on 9/11 and 
since then. So we have your expertise, I think, to draw on.
    The biggest complaint after 9/11 was we were not connecting 
the dots, we were not sharing information. Then a decade later 
we had Boston, and I was disappointed to see that we are still 
not getting it right.
    I had Ed, Ed Davis, the police commissioner, testify that 
even though he had four members of his police department on the 
JTTF, that they knew nothing about the Russian warning; they 
knew nothing about the FBI opening an investigation into 
Tamerlan; they knew nothing about his travel--foreign travel 
overseas even though he was on four watch lists. Even though 
CBP knew about that, we don't know if that was even shared with 
the entire JTTF or the FBI.
    We know in this business we get it right most of the time, 
but if we don't get it right the consequences can be very, very 
severe and very damaging, as we saw on 9/11 and in Boston.
    So my question to the three of you is: Where are we since 
9/11 in terms of this information-sharing process, not only 
with FBI and DHS but the JTTFs and the fusion centers? Are we 
where we need to be or can we--do we need to do a better job?
    I will start with you, Commissioner.
    Commissioner Miller. Thank you, Mr. Chairman. I would say 
from New York City's perspective we are in as good a shape as 
we could be.
    To take your question in the arc it was delivered, we have 
a high degree of concern in that there are more foreign 
fighters in Syria right now in a 3-year war than during the 
entire pendency of the war with the Russians in Afghanistan the 
last time, and that is largely owed to the marketing piece of 
social media that sends out a global message that will bring 
them there. Twelve thousand of them are--12,000 to 15,000 are 
estimated to be Westerners from United States, Canada, Europe--
visa-waiver countries where they are a plane ticket away from 
the United States, and that is of great concern.
    So within the framing of your question, in that kind of 
threat environment, when you have to ask yourself, ``Will they 
be hardened, radicalized, trained in weapons and explosives, 
and who and where will they be when they come back?'' Within 
the structure of the New York City Counterterrorism Program we 
have the Intelligence Bureau, we have the Counterterrorism 
Bureau. We have over 100 detectives assigned to the JTTF.
    Addressing the issues of my good, close, personal friend, 
Commissioner--former Commissioner Ed Davis, from Boston, part 
of the difficulty they had to deal with was that they only had 
four detectives on the JTTF and that they lived within the 
threat squad that ran leads. Our investigators are spread out 
across every single squad in the Joint Terrorism Task Force, so 
that delivers us a 360-degree view of the activities of that 
task force across all programs.
    Behind that we have a briefer that comes up from the 
National Counterterrorism Center every week and, within our 
secured compartment and information facility, conducts 
Classified briefings for the command staff of intelligence and 
counterterrorism on the current threat pictures as it is 
amalgamated in NCTC from overseas, as well as regular briefings 
that we have between our analysts and the analysts at the FBI.
    If anything, Mr. Chairman, the challenge we face is 
drowning in intelligence, information, and leads in the busy 
threat stream across a number of platforms. But a lack of 
connectivity or information sharing is not a New York City 
problem.
    Chairman McCaul. That is very encouraging. I do think--I 
have always said--that the local police and first responders 
know the streets better than anybody. They are the eyes and 
ears. I think the FBI can leverage that to their benefit if the 
information is properly shared.
    I do think New York has stood up, and I commend you for 
your efforts.
    Chief Schwartz and Chief Hooley, you are in a little 
different position. It is more fire fighting, EMS, but I do 
think there is a benefit to the sharing of information in terms 
of being prepared.
    Like, sir, in Boston I think there was a threat prior to 
that, not related to Tamerlan, so the--Boston did stand up its 
EMS operation. I think in Arlington, being so close to the 
Nation's capital, it would be of benefit, I think for the two 
of you, can you sort of--can you tell us where you are with 
information sharing?
    Chief Hooley. Yes, sir. I definitely think that we are in a 
better place than we were right after 2001.
    You know, Boston started its local regional intelligence 
center--its fusion center several years ago. In 2007 we did 
place a full-time paramedic--a veteran person from our 
department--over there, and that is his primary assignment.
    Over the years he has been offered a lot of training that 
came through DHS for analysis training, has access to the GIS 
and to other analysts that are in there, is able to sit in on 
daily briefings, has received a lot of training about, you 
know, how to handle material and how to pass it on.
    Now how--what can be passed on? What comes through is 
another thing and I can't always speak to that.
    But having somebody in there as a trusted partner is a good 
first step, because sometimes you only need a little bit of 
lead time to start to put yourself in a position to prepare for 
something. There was an incident several years ago where I 
mentioned to one of the staff--you know, I don't think it was 
anything sensitive; I think it was Law Enforcement-Sensitive--
about a truck that was missing, stolen, whatever, up in eastern 
Canada somewhere that had a large amount of cyanide with it. 
Again, no threat with it or anything, but just that little bit 
of information that did come down to us, you know, reviewed our 
treatment, signs, and symptomology for that, our stores of the 
antidote that we had, what P.V. do we need to effectively care 
for people. So it gave us the ability quietly, behind the 
scene, for the managers and the medical directors to be ready 
for that.
    So again, nothing happened. It didn't evolve. But having 
that--having people in places like that does give us that early 
head start.
    Chairman McCaul. Chief Schwartz, my time is expiring, but 
if I could touch on interoperability, you mentioned that in 
your opening statement, that 9/11 Commission recommended 
greater interoperability. We are still not there. Congress has 
acted, as well, and there is a $7 billion initiative called 
FirstNet to develop that interoperability.
    Do you feel that the first responders have been adequately 
consulted with regarding the development of FirstNet?
    Chief Schwartz. Congressman, I would say that, you know, so 
far the efforts at FirstNet are still maturing. We are not too 
far down the road yet, you know, in terms of results.
    But I think that we are confident, you know, to date that 
we are being consulted. Chief Jeff Johnson, former president of 
the International Association of Fire Chiefs, is on the board. 
He is doing a great job, along with some of his colleagues, to 
do a lot of outreach and inform local communities, local 
leaders about what this is going to mean.
    So I don't think we are too far along yet, but I think we 
are pleased with where we are to date. We are watching it very 
closely.
    Chairman McCaul. That is certainly good to hear.
    Chairman now recognizes the Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I really appreciate the expertise that our witnesses bring 
to this hearing.
    Chief Schwartz and Chief Hooley, the Metropolitan Medical 
Response System has been credited with building local and 
regional capabilities to respond to terrorist attacks involving 
hazardous material and other mass casualty events. However, we 
have not provided funds for that program since 2011.
    Has the lack of this funding, in your professional opinion, 
affected capabilities for your departments to respond to mass 
casualty events, and how has your region maintained that 
capability with the lack of these funds?
    Chief Schwartz. Congressman, we have been very fortunate in 
both Arlington and the NCR to be in an area that receives UASI 
funding, so it is hard for me to tell you that the amount of 
money that we were getting with MMRS has been a tremendous loss 
because we still have other funds coming through the UASI 
program that enables us to do, you know, some of the same 
things that we were doing through MMRS.
    What I would say is that MMRS, in my estimation, was less 
about the amount of money that we received; it was more about 
how it sort-of catalyzed a systems approach to preparedness. It 
got the right stakeholders to the table to interact around the 
various threats that a particular community might face and 
caused them to do planning and the development of capabilities 
in a way that recognized that everybody has to work together, 
that there isn't any one profession--or in the case of regional 
applications, any one jurisdiction--that has, you know, the 
full solution or a full set of capabilities.
    So I would say that in those jurisdictions that, you know, 
are not the beneficiaries of UASI money, MMRS played a far 
greater role in getting people to the table even though it 
didn't provide a lot of money. If I am not mistaken, I think 
the entire program never exceeded $70 million.
    On a local level we were receiving little more than, you 
know, $150,000 or $200,000 a year. That wasn't buying an awful 
lot, but it did certainly facilitate getting stakeholders to 
the table to figure out how to do things together, and that 
resulted in better performance in the operating environment, in 
my view.
    Mr. Thompson. Chief Hooley.
    Chief Hooley. Congressman Thompson, yes, I really have to 
echo what I just heard from my new friend here from Arlington. 
The MMRS program in a lot of ways was the little engine that 
could.
    I think the largest amount of funding we maybe saw in 1 
year for that might have been around $300,000. But it did pull 
together a lot of stakeholders because it was specific to 
hospitals and to pre-hospital.
    Just to give you a couple of examples from when we did a 
lot of work with that group to build our staff-sharing 
agreements between hospitals. We built a lot of our capability 
to respond to a nerve agent, a chemical attack, and to buy 
antidote, stockpile that, do the training for that.
    We were able to keep that in place, but sustaining that now 
does mean that we have to draw our other dollars. You either 
take it from operational money, you take it from UASI, or you 
don't do it. So that is one of the--our legacies from that.
    The other one was we were able to build up a pretty good 
capability around the medical management of patients if there 
was a dirty bomb by involving the radiation safety offices from 
all the hospitals in Boston, who just--the hospitals donate 
their time to us so we could work on building portals, building 
other things. They maintain--they keep them available for us to 
use if there is a mass care event.
    So with a small--relatively small investment from MMRS we 
were able to build some pretty good systems that we are still 
benefitting from today.
    Mr. Thompson. My point is sometimes we can provide the seed 
monies to get people to the table to do something big, and that 
was kind-of the reason we kind-of pushed those funds.
    Dr. Jackson, do you think the Federal Government is doing 
everything it can to ensure first responders have equipment and 
technology they need to protect themselves during disaster 
responses, based on your research?
    Mr. Jackson. Setting the bar at ``everything that can be 
done'' is a very high one. I mean, certainly the investments 
that have been made in the grant programs have built capability 
over time, sort-of as I cited in my testimony, the change that 
we have seen since 9/11 and since Katrina really is impressive.
    One of the challenges that has come up in our research 
sort-of trying to understand this from an outside really is the 
problem of measurement. I mean, some of the things that we have 
heard about here are the relationships, you know, building the 
relationship between agencies so they can work together 
effectively. Figuring out how to measure that to determine, you 
know, whether the capability that was built between agencies, 
you know, 5 years ago before staffs change will still be 
available 5 years from now, you know, when people have retired, 
when people have been promoted gets to the question about, you 
know, sort-of how do we ensure that we maintain the 
preparedness that we have built over time?
    So the--sort-of continuing those investments, but also 
continuing the investments in understanding how to measure it 
so we know how much confidence we should have in this system is 
still something that I--that there is a need to focus on at the 
Federal level.
    Mr. Thompson. I yield back.
    Chairman McCaul. Chairman now recognizes the gentleman from 
New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    Let me thank all the witnesses, and especially thank Chief 
Schwartz for what your department did at the Pentagon attacks 
of 9/11, Chief Hooley for the outstanding work that the EMS did 
after the marathon bombings last year. As the Chairman said, it 
is really amazing that 263 people had severe injuries and no 
one died. It is really a testament to the outstanding job that 
you did.
    Commissioner Miller, it is good to see you here today. You 
have a long record in law enforcement--NYPD, FBI, director of 
National Intelligence Office, and now back with the NYPD.
    You know, there is a lot of talk about--excuse me--Federal 
funding that goes to different police departments around the 
country, including the NYPD. There are also a lot of 
unreimbursable expenditures. Can you just give some example--
for instance, how many NYPD police officers and civilians are 
focused on counterterrorism and intelligence?
    Commissioner Miller. As you know, Congressman, one of the 
things that those funds rarely if ever apply to is personnel 
costs. The NYPD's commitment to the counterterrorism mission is 
second to none in that between those two bureaus we have 
devoted over 1,000 people to this on a full-time basis, and 
then pull in additional officers from around the city on ad hoc 
missions to support the counterterrorism effort every day.
    Mr. King. As you said, that is largely unreimbursable as 
far as the personnel cost attached to that.
    Commissioner Miller. Yes.
    Mr. King. Right. There are also many threats that are not 
reported where you have to send detectives out there or 
officers out there to monitor a situation, which goes 
unreported but does obviously run up the expenses.
    Commissioner Miller. Yes. That is correct.
    Mr. King. Also, you mentioned about New York being a 
target. Could you give some examples--for instance, from 
Inspire magazine; rather than just a generic attack on New 
York, they actually give specific examples?
    Commissioner Miller. New York as a primary target for 
terrorism is based first on empirical data. When you tick 
through the 16 plots targeting New York City before and after 
9/11, starting with the bombing of the World Trade Center in 
1993 and moving forward, but I think when you look at some of 
the more recent plots, whether it was Najibullah Zazi's plot to 
put 16 backpacks on the New York City subway system to cause 
mass casualties or the plot that followed that involving Faisal 
Shahzad's delivery of a truck bomb to Times Square, both of 
them would say that they were inspired in large part by the 
videos and messages of Anwar al-Awlaki.
    As you know from your briefings on this committee, Anwar 
al-Awlaki then aligned himself with a young American from North 
Carolina via Queens named Samir Khan, who started Inspire 
magazine. From its first issue, Inspire magazine has always 
focused on driving forward--this is an on-line publication of 
al-Qaeda in the Arabian Peninsula, carrying al-Qaeda's 
narrative--driving forward the idea of the homegrown terrorist 
acting out within the capacity of what they could do without 
the actual support of the headquarters component of al-Qaeda.
    We have seen that in a number cases, including Mohammad 
Quazi Nafis, who drove what he believed to be, as part of an 
FBI undercover sting operation in concert with the NYPD, a 
1,000-pound truck bomb to the front of the Federal Reserve in 
the middle of a crowded Wall Street lunch hour, and dialed the 
phone to set that bomb off while watching from a hotel window 
above six times. When we looked at that device you saw the 
detonator hooked up to the cell phone with the six missed 
calls.
    In addition, the most recent issue of Inspire magazine 
takes the mistakes that they claim caused Faisal Shahzad's 
Times Square truck bomb not to function and says that they have 
remedied those technical errors with a new recipe and 
instruction manual for a car bomb. The magazine is quite clear 
in its copy to say that the purpose of this bomb is not to blow 
up the Federal building, or recreate Oklahoma City, or destroy 
structures; its specific purpose and design is to kill people 
in crowded areas. The picture that comes with that accompanying 
article shows a Ford van coming down Broadway in Times Square 
with a red circle on it at the corner of 47th Street and 
Broadway, which was the same place Faisal Shahzad planted his 
device.
    They suggest actual attacks against New York City right 
down to citing specific events and crowd conditions that would 
be optimal. So this is a theme and drum beat that we continue 
to see.
    The Pakistani Taliban has now launched its own magazine 
called Azan, along the Inspire model, and it also focuses on 
attacking within the United States, attacking large cities, 
specific references to New York City, and urges its readers not 
to reinvent the wheel. If you can't get a gun, get some other 
kind of weapon and do what you can.
    Mr. King. Thank you, Commissioner.
    Mr. Chairman, if we have a second round I would like to 
discuss Secure the Cities with Commissioner Miller.
    Chairman McCaul. Chairman now recognizes in the order of 
appearance, Mr. Keating, from Boston.
    Mr. Keating. Thank you, Mr. Chairman.
    It is great to see you here, Chief Hooley, in particular.
    I have a couple questions. One is, quickly, I think one of 
the most important parts of training is to develop the chain of 
command so that is there. Could you comment on that? Because in 
my own experience, when there are emergencies of lesser scale, 
and you had fire personnel, emergency personnel, police 
personnel even within the same areas of government, that was a 
problem.
    But how important is that, so that that is established 
ahead of time?
    Chief Hooley. Having a chain of command established and 
having people routinely employ ICS or NIMS is of great 
importance. When events happen, such as we experienced that day 
in Boston, people knew--the people I know in my department, and 
suspect also in police and fire, everyone knew what their 
positions, duties, and zones of responsibility were that day. 
They knew who the supervisors were above them.
    But they also--the supervisors above them, more 
importantly, knew how much that they could delegate and let 
people improvise on the plan to accomplish the mission.
    Mr. Keating. Great. You just segued to one of my other 
questions from the EMS side.
    In the Boston Marathon bombing there was so much that was 
accomplished through just the good common-sense people 
exercised. They put people in--not in medical vehicles, many 
times, but just in cars that weren't equipped, just to get them 
to the hospital in time.
    What lessons were learned from doing that? What resources 
are necessary in the future? One of the things--things like 
QuikClot and other things that are there, more accessible to 
first responders that are important?
    Could you comment on what you learned through some of the 
improvising that occurred and what you saw in terms of the need 
for additional resources?
    Chief Hooley. One of the biggest things we saw was, you 
know, the willingness of the public to step up and become first 
responders, as well. You know, in a city like Boston, and I am 
sure in New York and the Capital Region here, there are a lot 
of folks who either have medical training, or they have worked 
in medical settings, they have prior military experience, and 
they are all willing to step up when they see, you know, fellow 
citizens injured.
    Being able to supply them with quick material--for example, 
when you mentioned tourniquets, well we have always carried 
them, we have always deployed them going back many years. You 
know, now we have since more than doubled that.
    All the first responders in Boston now have been equipped 
with that because we saw just how quick, simple, mechanical 
tool it is. You know, it requires a minimal amount of training.
    Mr. Keating. So, if I--just jump, because my time is 
limited, to the panelists as a whole: 9/11 identified one of 
the most serious needs to be increased communication. In 2012 
we have appropriated $13 billion to help that. We have the 
FirstNet going on; we have--which would be years away.
    Where are we now, from your perspective, in terms of 
increased communication? Because that will save lives. It was 
identified in the 9/11 Commission report as something that if 
it had been at a better level would have saved lives.
    Where are we now with that communication on the ground?
    Chief Hooley. Well, for the base interoperability--and I 
will go real quick--we have made a lot of advances, really 
thanks to the Federal Government. Our EMTs and paramedics on--
just on the radios they carry have hundreds of channels where 
they can immediately talk to other agencies if they need to, 
and even the surrounding cities and towns around Boston, all by 
agreement. There have been a lot of advances there.
    The Federal Government also sponsored us being able to 
build a Boston Area mutual aid network, where we are able to 
put consoles in the private ambulance companies, because we 
really depend on the privates to help in a mass care event. If 
this had been 5 years prior, we would have been forced to go 
through our rolodex of phone numbers and call companies 
individually. This way, we hit a button, like on this, we are 
able to talk to them all.
    Mr. Keating. Great.
    Chief Schwartz.
    Chief Schwartz. Congressman, I was just going to say, using 
Virginia as an example, one of the things that we have done is 
divided--or using the regions that were already established in 
the Commonwealth of Virginia, and within each of those regions, 
developed regional interoperability committees that join 
together both jurisdictions and professions--the different 
disciplines--to work on the problems, you know, regionally of 
interoperability. Then the State-wide interoperability 
coordinator has the role of sort of knitting together what each 
of those regions is doing.
    I think we have made vast improvements in the last almost 
13 years now, but, as you say, there is--you know, there is 
still some work to do. You know, one of the things that I think 
we need to focus on is that there are an awful lot of 
jurisdictions out there that simply do not have the resources 
of a New York of the National Capital Region, and that is where 
I think we can take greater advantage of sharing 
infrastructure, you know, that each jurisdiction doesn't 
necessarily need to build its own capability; it can share 
infrastructure with other jurisdictions, thereby reducing cost 
and facilitating interoperability.
    Mr. Keating. Thank you.
    My time is up. I yield back.
    Chairman McCaul. Chairman now recognizes the chair of the 
Emergency Response and Preparedness Subcommittee, Mrs. Brooks.
    Mrs. Brooks. Thank you, Mr. Chairman, and thank you for 
hosting this hearing.
    Thank you all so very much for what you do.
    Good to see you again, Chief Schwartz. You have appeared 
before our subcommittee and really appreciate you returning.
    You have listed, actually, a number of things that you 
brought up, as well, before the subcommittee. I am curious from 
your colleagues that are here with you today what are the top 
priorities that you would like to see fixed. Because you listed 
a number of things, which I think are very important--security 
clearances for, whether it is EMS or fire, to sit on JTTFs; 
over-Classification of Classified information, possibly that 
issue of over-Classifying information which first responders 
might very much need to have.
    Chief Hooley, you mentioned that you need that information 
so you can be prepared with respect to antidotes and how to 
take care of patients, and so forth.
    So I am very curious from each of you, what is it that you 
need? We certainly know that the funding is critically 
important, but what are the top concerns that you actually have 
for first responders, particularly with respect to terrorism, 
which--and as we have heard from the deputy commissioner, with 
the thousands of people that we are concerned might be 
returning--thousands of Westerners returning to this country, 
what are your top priorities?
    Deputy Commissioner, just out of curiosity?
    Commissioner Miller. I think you have actually framed it 
very well. From the New York City standpoint, with the 
bandwidth we have, though, as has been a bit of a theme behind 
the questioning here and our testimony submitted for the 
record, funding is still the top priority in that the 
counterterrorism overlay, the training that comes with it, the 
equipment that comes with it, even, as Congressman King pointed 
out, while we absorb a lot of that cost in the personnel area, 
the idea of networking the region together, having a common 
operational picture, getting common operational equipment so we 
are operating on a common standard--all of this is dependent on 
the support of the DHS funding, the UASI program, and so on.
    The FirstNet issue is critical in that that real estate in 
the communications world needs to be mapped out, needs to be 
well-thought-out. Of course, the training, which relates back 
to the funding.
    Mrs. Brooks. Thank you.
    Chief Schwartz, of all the things that you listed, what 
would be your top priority?
    Chief Schwartz. So I am not going to repeat the--you know, 
what we have all talked about in terms of the funding, but I 
think, you know beyond the funding there is, you know, dare I 
call it a behavioral aspect to some of this, you know, what 
people in positions of leadership are held accountable for.
    So as an example, we have talked a little bit about 
information sharing and, you know, how we at the local level 
get our information. One of the things that we have discovered 
is that the people who are amassing that information--the 
analysts--don't often understand what we do or why we need that 
information or why it needs to be characterized in a way that 
would lead us to develop capabilities in response to these 
threats.
    That is why I cite, you know, the Joint Counterterrorism 
Assessment Team at the NCTC. We have undertaken in the National 
Capital Region an effort to--something we call Take Your 
Analyst to Work Day. We actually have the analysts from the 
intelligence community come out and ride fire trucks, ride 
ambulances, ride in cop cars so they can see our job, how we do 
it. It actually makes it clear to them why the information that 
typically and traditionally they are producing for high-level 
Federal decision-makers has, in some cases, applicability to 
us.
    Mrs. Brooks. While that is an incredible example of a best 
practice, you have also mentioned that we as a country aren't 
doing a very good job sharing the best practices.
    Chief Schwartz. Correct. Correct. We are spending a lot of 
money on some very good things in our jurisdictional or 
regional areas, but for all of the money that we are spending, 
we are not leveraging the best practices.
    It seems to me that it would be easy enough in the grant 
programs to look at some of the success and promote those, 
incentivize those in subsequent years--adapted for local 
conditions, obviously, or regional conditions, because not 
everything is a one-to-one fit. But I think there is not enough 
out there--not enough awareness of what has worked in other 
areas.
    Patient tracking, as an example. We have heard a couple of 
times about the Boston experience and other experiences.
    In the NCR we have created what we believe is a very robust 
patient tracking system that overcomes the difficulties of, you 
know, where patients are during a crisis. How do we promote 
that beyond our own, you know, marketing of that? How do we get 
FEMA to say, ``This is important and we are going to put money 
into this so that everybody can enjoy the successes that the 
National Capital Region has''?
    Mrs. Brooks. Mr. Chairman, because I know that Chief Hooley 
and Boston have been outstanding in looking at best practices, 
I could just ask Chief Hooley to respond what--how you have 
studied best practices, if I am not mistaken, from around the 
country. Can you share a bit with the committee about that?
    With that, I will yield back after his answer.
    Chief Hooley. Thank you.
    You know, we take advantage of every event to try to learn 
from not only formal after-actions reports that come out later, 
but whenever we have an opportunity, you know we have expended 
dollars--sometimes operational dollars or even some grant 
dollars--to bring some of the folks who dealt with the 
situations on the ground there in to talk with us.
    One example, after Katrina we brought up some folks from 
the local hospitals and EMS, as well as law enforcement and 
fire down there, to really give us an idea of what would work, 
what wouldn't work here to test us. We did that with the Gulf 
Region for some hospital evacuations.
    As it relates to terrorism, we brought over folks from 
Northern Ambulance Service after their attacks on their subways 
to find out what worked in the mass care setting, what worked 
as far as setting up either a field hospital versus getting 
people out of there. We have talked to people from the Israeli 
Defense Forces about how to deal with secondary devices, 
suicide bombers, so that we could maximize our effectiveness 
if--when our day came.
    Mrs. Brooks. Mr. Chairman, there are so many incredible 
things that these departments are doing, it just seems that 
with modern-day technology we as a country ought to be able to 
figure out how to share these incredible best practices, which 
I don't think we are doing right now as a country.
    With that, I yield back.
    Chairman McCaul. I completely agree with the gentlelady.
    Chairman recognizes now the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman and I thank the 
Ranking Member for this important hearing.
    To all of the witnesses, each of you have had first-hand 
experience or you have had involvement in the research of this 
very important component to our National security. Every time I 
address this question in homeland security I like to use the 
terminology ``National security,'' because each of you are 
really on the international front lines, only because many of 
what you have had to encounter has generated from entities 
beyond these shores. So I thank you very much for your first-
hand knowledge and involvement.
    Let me mention the obvious that both the Chairman and the 
Ranking Member have already made mention of. First of all, I 
believe the Chairman made mention of ISIS, which is now, in 
essence, having a large part of Iraq under siege, and as we 
speak, are moving toward any number of cities and confronting 
the Iraqi National Security Forces, which are finding it very 
challenging to deal with these both heinous and violent, 
horrific, and moral-less terrorists. They represent a threat to 
Iraq, but the represent the existence of entities that are 
hungry for publicity and the ability to show their prowess.
    We just returned from Nigeria less than 24 hours ago, and 
you may have heard of something called Boko Haram. Today some 
would say that that is a small entity in an isolated northeast 
part of Nigeria, but the delegation that went saw them as vile, 
moral-less thugs and terrorists that are decapitating police 
officers, and slitting the throats of women, and kidnapping 
children. They are connected to the terrorists that are in the 
Sahel and they are worth taking note of.
    I say this because it is well that America has first 
responders and a new view of intelligence sharing that gives us 
some comfort since 9/11. But it is always important to be 
vigilant.
    So one of the things that we established--two points--and 
to my Ranking Member, I support wholeheartedly his analysis 
regarding using something called all-hazards grants as opposed 
to the grant process that we had before that would allow the 
various first responders to seek particular resources and they 
would be focused on National security and homeland security. I 
hope that we can continue to work with the administration to 
see that importance.
    I want to read a sentence from Deputy Commissioner Miller, 
from your statement that said, ``That is why it takes 
additional resources, specialized equipment, and more money to 
police events that used to simply require police personnel for 
crowd and traffic control.'' It is a new day, is it not?
    Would you speak to the importance of dollars that impact 
intelligence sharing and interoperability? I say that because 
none of you are from the fourth-largest city in the Nation, 
which is Houston, but we also face our challenges and need to 
have those resources. But would you speak to that, please?
    Commissioner Miller. I would be pleased to, Congressman 
Jackson Lee.
    The counterterrorism overlay that we referred to, if you 
look at an event like the Boston Marathon and then you have a 
major public event, whether it is another race or a major 
parade, deploying the people who are going to be conducting the 
countersurveillance in the crowd, looking for operators who 
might be planning something in the crowd, looking for those 
Tsarnaev brothers; the deploying of not just a bomb detection 
canine that is going to look at a package and say ``does it 
contain explosive or not'' if it is sitting there, but the more 
highly-trained and more costly vapor-wake dogs that are going 
to be able to move through a trail and actually pick up the 
vapor wake, the unseen odor that only one of those dogs can 
detect of somebody wearing a backpack or carrying a bag that 
contains a device moving through a crowd.
    When you look in the incredibly scalable world of port 
security and you want to push that threat outward from a city, 
the idea of having the sophisticated radiation detective----
    Ms. Jackson Lee. Is very important.
    Commissioner Miller [continuing]. Equipment on your 
aircraft or on your boats to detect that threat before it 
enters your port, all of this is enormously costly.
    Ms. Jackson Lee. Chief, may I just thank you.
    Chief, may I just ask you the question of interoperability 
and the importance of having grant dollars to improve 
interoperability--both the chiefs that are there, between your 
services and other services?
    Chief Hooley. Well, it is important--it is important, you 
know, to maintain it, because as we make advances in 
communication equipment and we keep expanding our abilities to 
talk to each other we want to be able to stay current with 
technologies.
    Again, the interoperability then extends beyond us and 
shared by the public safety agencies. You know, we have built 
up interoperability now with Mass Highway, so we can talk 
when--you know, they can direct us from their control centers 
when there is traffic things with Mass Port for incidents over 
at the airport. The potential to just keep expanding it, you 
know, now that you have a base and--is very good.
    Ms. Jackson Lee. Thank you very much.
    Chief Schwartz. I would just add that, you know, this 
entire effort in the wake of 9/11, it seems to me, has been to 
develop really a National capacity to respond to a crisis, 
whether it be, you know, terrorism or something more naturally 
occurring. Every after-action report that has been written has 
pointed to the issue of communications, the lack of 
interoperability.
    You know, I think the grant money as a way to facilitate 
people coming together and working on what really are not 
technological problems, you know, but are problems governance, 
they are problems of, you know, people sitting down and 
figuring out what it is they need to get out of the situation, 
I think is certainly assisted by the grant money to facilitate 
those relationships.
    Ms. Jackson Lee. I thank the Chairman for his extra time.
    I thank the witnesses for that special insight on 
protecting our National security.
    I thank you. I yield back.
    Chairman McCaul. Thank you.
    Chairman now recognizes Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    I appreciate the hard work of our witnesses and the men and 
women that they represent, who are key members of our 
communities.
    We must train for disasters, and I fully support efforts to 
train our first responders. As a former mayor for 11 years I 
know how important this is. I have supported firefighters 
grants, cops grants, regional information-sharing system. So I 
certainly understand that.
    But we must also prevent--work to prevent a terrorist 
attack. An ounce of prevention is worth a pound of cure, and my 
good friend, Michael Cutler, who was an ICE agent, would tell 
me, ``When it comes to terrorism, an ounce of prevention is 
worth a ton of cure.''
    Now the best thing that we can do to help our first 
responders is to prevent a terrorist attack in the first place. 
Now the 9/11 Commission report was given to Congress to do just 
that--to make recommendations of what we can do to prevent 
another attack. It was passed by Congress and signed by the 
President.
    The first paragraph of the preface of the 9/11 Commission 
staff report on terrorist travel begins with the following 
paragraph: ``It is perhaps obvious to state that terrorists 
cannot plan and carry out attacks in the United States if they 
are unable to enter the country. Yet prior to September 11th, 
while there were efforts to enhance border security, no agency 
of the United States government thought of border security as a 
tool in the counterterrorism arsenal. Indeed, even after 19 
hijackers demonstrated the relative ease of obtaining a U.S. 
visa and gaining admission into the United States, border 
security is still not considered a cornerstone of national 
security policy.''
    Now, the 9/11 Commission study on terrorist travel went on 
to detail numerous examples of instances where terrorists not 
only made use of visa and immigration fraud to enter the United 
States, but to also embed themselves in the United States. Page 
47 of this report notes, ``Once terrorists have entered the 
United States their next challenge was to find a way to remain 
here. Their primary method was immigration fraud.''
    Another paragraph--and this is found on page 98--it said 
that ``terrorists in the 1990s as well as the September 11th 
hijackers needed to find a way to stay in or embed themselves 
in the United States if their operational plans were to come to 
fruition.''
    Our borders are not secure. We do not have a biometric exit 
system to identify when someone overstays their visas. We are 
not enforcing our immigration laws to prevent immigration 
fraud.
    So we have not taken the recommendations of the 9/11 
Commission report.
    My question is, to each of you: Doesn't this make you 
nervous?
    Commissioner Miller. From the standpoint of New York City, 
given all the context we have discussed at this hearing, we go 
to bed nervous every night, and we wake up nervous every day. 
It is a state of being in the post-9/11 world.
    But to address those concerns, intelligence is, at its 
simplest, understanding a problem. Good intelligence analysis 
is understanding it well enough to do something about it. Part 
of that has to be about being well-placed to collect and 
analyze----
    Mr. Barletta. But if I could just--if intelligence tells us 
that the best way to prevent a terrorist attack is to stop it 
in the first place, and we know that terrorists use visas as a 
method of entry into the United States, and we know that they 
use immigration fraud as a method to embed themselves, wouldn't 
intelligence then tell us that we should enforce our 
immigration laws and secure our borders?
    Commissioner Miller. It would be within the Government's 
capacity to do it. You are asking a local official about a 
Federal problem, but I think where I was going with that is we 
have, as well as people in London, Tel Aviv, Oman, Abu Dhabi, 
Singapore, NYPD people embedded within those services to watch. 
We also--and I will be meeting with this person after this 
hearing--have people here at Interpol, but also at Customs and 
Border Protection.
    One of the great relationships we have between the NYPD and 
the Federal agency, aside from the FBI, is with CBP, in terms 
of keeping track of who is coming in, making sure that suspects 
we are investigating aren't getting out, and an alert system 
that goes both ways on that. I think that between our agencies 
that works very well.
    The larger problem that you frame is beyond the scope of 
the NYPD to address.
    Mr. Barletta. Chief Schwartz, does it make you nervous that 
we are not following this report?
    Chief Schwartz. Well, Congressman, I would, you know, echo 
the commissioner's observations. There is a lot about 
international travel that, you know, that has me concerned, and 
that is one element that--you know, the one you are describing 
is unfortunately one that I have little influence or control 
over.
    As concerning to me is the people, you know, the legitimate 
people in this country who are, you know, potentially traveling 
to areas of conflict right now, picking up, you know tactics, 
techniques, and procedures that they might bring back here and 
use. As the commissioner indicates, our ability to get the 
intelligence on those folks and properly prepare----
    Mr. Barletta. I understand that. I appreciate that. You 
know, it is remarkable--the intelligence of what we are able to 
do, but aren't we missing step No. 1 is to prevent it in the 
first place? If we can stop an attack from someone even coming 
here and embedding themselves here, shouldn't that be a 
priority?
    Chief Schwartz. Congressman, I wouldn't argue your point. 
Absolutely. It is just that from where I sit I have little 
influence on that.
    Mr. Barletta. Chief Hooley.
    Chief Hooley. Well, as you said in the beginning, an ounce 
of prevention is worth a ton of cure. Can't disagree with that.
    I guess, you know, as far as, you know, my influence as a 
local EMS provider is a little bit--not much when it comes to 
international travel or those type of matters.
    Mr. Barletta. But isn't the best thing we could do for the 
EMS is to not put them in harm's way in the first place?
    Chief Hooley. Oh, sure. Because our response is based on 
having to respond to something and consequence management----
    Mr. Barletta. Thank you.
    Dr. Jackson.
    Mr. Jackson. Certainly the challenge here is understanding 
the right approach to get the most benefit towards this 
problem. Immigration and border control is one part of that, 
but as we have heard about, you know, interagency 
relationships, really this is a systems problem. We have heard 
discussions about----
    Mr. Barletta. If you think of enforcing--but again, we are 
glazing over, because there is a political aspect to this, but 
there is a National security aspect to this. I get it. I 
understand the political aspects of it, but I am worried about 
our National security. We should not be playing politics with 
the security of the American people.
    If we know that terrorists embed themselves in the United 
States and use immigration fraud as a way to do it, should we 
be doing that?
    Mr. Jackson. Well, certainly immigration and border 
protection is one part of this overall system. But there is a 
resource question here, and it is a question of where in that 
system an investment in the resources will get the most safety.
    Mr. Barletta. Isn't the way to get the most safety is to 
not allow them into the United States in the first place? Seems 
pretty obvious to----
    Mr. Jackson. In the ideal, depending on what the relative 
price of getting better there versus getting better----
    Mr. Barletta. What was the price of 9/11?
    Thank you.
    Thank you, Mr. Chairman.
    Chairman McCaul. Time is expired.
    The Chairman now recognizes the ever-patient Ms. Clarke, 
from New York.
    Ms. Clarke. Thank you, Mr. Chairman. It is so good that you 
should mention that. I just want to put on the record, I got 
one--you owe me one. Thank you, Mr. Chairman.
    To the Ranking Member, as well, thank you.
    To our panelists, thank you for sharing your expertise this 
morning. It has been quite edifying. I think that there are 
some recurrent themes that, you know, remain a challenge for 
us.
    Let me welcome back the NYPD and welcome back to Capitol 
Hill Deputy Commissioner John Miller. I wanted to ask--I will 
start with a question to you, sir--unfortunately, due to the 
experience of 9/11 and not--and out of the necessity of having 
thwarted several terrorist attempts since, New York City has 
developed expertise that serves as a model for counterterrorism 
planning and programs.
    Since you have been in your current position, what 
counterterrorism programs have you changed, and what programs 
have you found most effective or ineffective? For example, many 
Americans in and outside of New York--the New York-New Jersey 
area--were a bit troubled by a few years back when we learned 
that NYPD officers were dispatched to New Jersey to conduct 
surveillance activities at mosques and other social gathering 
places of Muslim Americans.
    In the wake of 9/11 we understand that singling out and 
targeting individuals based on religion is not the way to go. 
Violent extremism transcends religion. Can you comment on that?
    Then, please share any concerns that your agencies have 
regarding consolidation of grant programs, maintenance of 
effort, and its impact on remaining vigilant, stood-up, and 
forward-leaning in the face of ever-evolving and multi-faceted 
terrorist threats.
    Commissioner Miller. Let me try and go in order, and if I 
miss something just bring me back.
    As far as concerns about NYPD and the so-called Muslim 
Surveillance Program, there is nothing called the Muslim 
Surveillance Program; that is a term kind-of coined by the 
newspapers so that has become a bit of a bumper sticker. On the 
other hand, there were concerns about the scope and breadth of 
NYPD's efforts to gain information at the onset of its 
intelligence program and its coordination with other 
jurisdictions.
    In the time that I have been back at the NYPD, which is a 
mere 6 months at this point, what we have done is increase our 
coordination, I would say in the extreme with the FBI, not just 
in New York but also in the Newark field division in New 
Jersey. We have increased an already fairly good coordination 
with the counterterrorism entity in the attorney general's 
office in the State of New Jersey.
    In terms of the optics issue about, well where were they 
looking and what were they looking for, part of that is to 
understand that while jurisdictional borders between law 
enforcement agencies are critical to be mindful of, both in 
procedure and in some cases in law, terrorist plotters don't 
actually honor those borders. The people who built the World 
Trade Center bomb in 1993 built it in New Jersey. Most of the 
plot against the Federal Reserve was--the bomb was constructed 
in Long Island.
    So it is incumbent upon the NYPD to have a richer picture 
in terms of understanding not just New York City but the 
surrounding areas. Part of the issue there is the community 
outreach and community relations issues, which is how were 
those efforts framed? Were the earliest efforts reflective of 
what we are doing today--and the answer there would be no. I 
think there was also a bit of a learning curve over those 
years.
    So to get a better understanding and get clearer optics, 
one of the things that we have done in the past 6 months is to 
increase our outreach to those communities within the greater 
metropolitan area. We have had three major meetings with 
stakeholders in the Muslim community, as well as some of the 
very groups that are engaged in litigation against us, to bring 
them to the table, to take their questions, to try and give 
some answers, to address their concerns.
    Today, as we sit here in this room, the New York City 
Police Department is doing its pre-Ramadan briefing, where they 
bring in a large number of people from the Muslim community and 
religious leaders to talk about, before the holiday season, 
their concerns, from issues as simple as parking during prayer 
time at mosques to as complex as radicalization--whatever they 
want to discuss. The police commissioner has met with them 
personally; I have addressed those concerns, and that is a 
dialogue we intend to continue.
    I just want to close on that issue by saying: Very much in 
the universe that we lived in in Los Angeles, where we competed 
with the message of gangs in the streets for the attention of 
children and teenagers and young people, we are competing with 
an equally powerful message coming through social media and the 
publications that go by the narrative of al-Qaeda that is 
urging young men to travel overseas to fight, to die, to martyr 
themselves or be maimed or killed, or to come back and bring 
that narrative back home to the United States.
    My message to those stakeholders in the community has been 
more, ``I need a partner here in a counter-narrative to that 
message that I cannot be the deliverer of the government, the 
police department, an intelligence entity can't be the one to 
deliver that message. I need your voices because there is a 
powerful message coming from the other side and we need to 
engage in this effort together.''
    That may mean a little more transparency on my part. I get 
that, and that is what they are seeking. But I need more help 
from the community as well.
    Ms. Clarke. I will yield back, Mr. Chairman. Thank you.
    Chairman McCaul. Thank you. Gentlelady's time has expired.
    Chairman recognizes Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman, and to the Ranking 
Member.
    To the panel, thank you for your testimony today.
    Deputy Commissioner Miller, I know your work with the NYPD. 
I grew up across the river in Newark, New Jersey, but as a 
youngster I remember you more on NBC channel four, 
disseminating information to the community.
    Chief Schwartz, I was fortunate enough to have TEEX 
training in Texas, and they used your experience on 9/11 as the 
scene, and what you were able to do that day in the 
circumstances that you found yourself is commendable.
    Chief Hooley, to know that you were able to get those 
people to the hospital within 22 minutes of that function is 
incredible.
    You know, Chief Schwartz, in your testimony, you know that 
communications problems posed challenges during, you know, the 
response activities at the Pentagon on 9/11. Can you talk about 
how States, regions have improved interoperable communication 
capabilities since 9/11? Can you also talk about the important 
role of State-wide interoperability coordinators and the 
regional interoperability working groups?
    Chief Schwartz. Thank you, Congressman. I mentioned in a 
previous question just a little bit about some of the things 
that we are doing in Virginia with regard to regional groups 
that are working on the interoperability problem, and that has 
been facilitated by the State-wide interoperability 
coordinator, through what, you know, again, as we have talked 
about in a number of different dimension here, you know, by 
using some of the grant money as sort-of the hook to get people 
to the table and get them to cooperate with each other, and it 
is our hope that, you know, some of the things that we have 
accomplished there will be continued.
    Two other things that we have done in Virginia under the 
auspices of the interoperability coordinator is to create a 
linkage between the State's radio system and that of all the 
local radio systems. The State had a previous architecture that 
they had invested in, and it was important that, as an example, 
the State police be able to communicate with local law 
enforcement, fire, rescue, and so they were able to create a 
linkage between those two disparate systems.
    Then last, and it, you know, it is a relatively, you know, 
minor issue in the overall scheme of things, but it is not 
unimportant in the operating environment, and that is the State 
interoperability coordinator moved everybody towards a common 
language, which, as you may remember during 9/11, you know, was 
especially problematic with the use of 10 codes and different 
terminology that really complicates communication.
    So I would just add to this discussion about 
interoperability that the interoperability can't be seen as, 
you know, sort-of the Holy Grail. It has to be part of an 
operating system that includes an effective incident command 
system, incident management system. In my view, I have seen too 
many times where interoperability is used as a kind-of a reason 
not to co-locate and actually make joint decisions.
    So I think interoperability needs to be looked at through 
the lens of operability--you know, the total system of incident 
management, of which our ability to talk to each other 
mechanically is but one part.
    Mr. Payne. Okay. Thank you.
    You know, during the discussion, you know, the grants that 
have been very useful to your different agencies have come up, 
and, you know, there is a proposal--the NPGP, or the National 
Preparedness Grant Program--to consolidate UASI and all the 
grants into one sum of money and have everyone compete. There 
are many Members in Congress that don't think that is very 
wise.
    I know what UASI has meant to Newark, New Jersey, and to 
have those dollars all come together and then disseminated to 
the State and then, you know, in Newark, cross our fingers and 
hope that we still continue to get the funding that has been so 
vital to the success of, you know, our homeland work in Newark 
that we hope that the State decides, ``Well maybe, Newark, you 
don't need as much.'' The direct funding to the entities, you 
know, on the ground is important.
    What is your feeling about--of that?
    Chief Schwartz. Well, Congressman, we have--you know, both 
the International Association of Fire Chiefs and and our 
partner organizations, the professional organizations, I think 
have been on record. I think this proposal has come forward now 
three times, and each time we have been of the view that, you 
know, we don't understand enough about what is trying to be 
achieved here.
    We are concerned about the transparency; we are concerned 
about--I would say we are concerned about even the competitive 
nature--the proposal that includes competitiveness, because 
what we are really trying to do is create a collaborative 
spirit here, right? How do we build systems in which people can 
work across the traditional boundaries?
    So, you know, I think our position has been not to dismiss 
it out-of-hand, but not enough information has come forward 
that gives us the confidence that we can achieve some of the 
same successes that we have had to date under the proposal that 
has come forward now a few times.
    Mr. Payne. Commissioner Miller.
    Commissioner Miller. From the simplest perspective, I have 
always believed, as the former head of counterterrorism and 
intelligence for the city of Los Angeles Police Department and 
now New York City, that the money should go where the threats 
are and where the targets are. That is a basic principle.
    I would also say that one of--reflecting on the chief's 
comments, one of the great successes of the UASI program in its 
current form is that it has pushed the money where the threats 
are, despite the expansion of UASI regions. But it has also at 
the same time, to Chief Schwartz's point, developed regional 
partnerships and strategies in how to exploit that money best 
within the regions where the threats and targets are.
    Mr. Payne. Thank you.
    Mr. Chairman, I will yield back. Thank you.
    Chairman McCaul. I wasn't planning on opening up to a 
second round of questions.
    Mr. King does have a question, and I would like to 
recognize him.
    Mr. King. Thank you, Mr. Chairman.
    Chairman McCaul. Of course, if the other Members would like 
to, that is fine as well.
    Mr. King. Thank you, Mr. Chairman.
    Again, I regret that I had to leave for another meeting, 
but I just want to follow up on something.
    First of all, let me just say, Commissioner Miller, besides 
being on this committee I am also on the Intelligence 
Committee. I do get Sensor briefings. When I see the threats 
and potential threats and possible threats against the city of 
New York and the outstanding work that you do and the NYPD 
does, and knowing that people in the community could 
participate in those threats and how important this is to 
prevent them and to monitor what is happening, I want to 
commend the NYPD for respecting Constitutional rights and 
protecting the safety and liberty of the people of the city of 
New York.
    In that regard, the Secure the Cities program has been 
funded now for a number of years, and there are questions as to 
how far into the future that funding should go. I believe it 
should be extended. I think it is vitally important. But if you 
could explain the significance of the program and also how that 
technology is transferable throughout the country?
    Commissioner Miller. The Securing the City program has been 
vital to the New York City Region, and I say ``region'' with an 
underline on the region part. This was a program that started 
with base funding of $18 million to develop this program where 
we would have radiation detection across the region. The 
regional piece is critical because, as the President of the 
United States said when he was asked an international affairs 
question recently, he said, ``What keeps me up at night is the 
thought of a nuclear device in New York City. Regional 
conflicts will come and go.''
    We have seen that go from $18 million to $16 million to 
$11.5 million, and then plans to take it down to the $4 
million-plus area. Building this out in New York City and then 
getting the common operational picture through the region, the 
common operating equipment, the same standards, the same 
vendors has given us the ability--again, back to the World 
Trade Center example--you know, they are not going to construct 
a nuclear device in New York City. It is going to come in 
through a port; it is going to be built on an off-site--in an 
area outside New York City, which means that detection 
equipment radiating out from the urban center that could be a 
target is critical, and we have built that incrementally over 
time.
    I would like to thank you for your efforts personally for 
helping us with the Department of Homeland Security and our 
efforts to maintain that funding as we complete that building 
process.
    To the back end of your question, is how could that help 
other regions, we were the first to do this regional Securing 
the Cities thing, with New York City serving as, for lack of a 
better term, the executive agent and helping the smaller 
agencies as they radiated out--150 of them within that region. 
I think what we have learned over time and what we have 
developed in terms of a program is transferrable.
    It is the conversations we have been having with my former 
colleague in LAPD, Mike Downing, about how to apply those 
lessons, and form, and format to their efforts, as well as 
Superintendent Gary McCarthy, in Chicago.
    Mr. King. Thank you, Commissioner.
    I yield back, Mr. Chairman. Thank you for the extra time.
    Chairman McCaul. Thank you.
    I want to thank the witnesses.
    I would be remiss, Commissioner, if I didn't allow you a 
few minutes to share with this committee your interview with 
Osama bin Laden.
    Commissioner Miller. It was something that happened in the 
last days of May 1998, a few years before September 11, back, I 
think, before that was within our concept. But I would like to 
say this: In sum and substance, what Osama bin Laden said to me 
over the course of an hour sitting face to face in that tent on 
a mountaintop in Afghanistan was this, that the system is more 
important than the organization.
    When I asked him if he was concerned about being captured 
or killed by the United States, his answer was, ``I am building 
an organization that is going to outlive me and whoever comes 
behind me by networking the message and the groups together.''
    But he also said on May 28, 1998, ``I predict a black day 
for America, after which nothing will be the same, that this 
war with the United States will be greater than our battle with 
the Russians, and that you will only come to understand this 
when you leave our lands dragging your bodies in shameful 
defeat and the coffins and the boxes.''
    I think at the time he said those words to me in 1998 it 
sounded a tad, Mr. Chairman, hyperbolic. Who was this 
individual who was not the leader of a state nor the general of 
an army, who had access to funds but not National treasure, to 
declare war on the United States and to predict that kind of 
outcome?
    I think Chief Schwartz and Chief Hooley and Dr. Jackson 
would agree that had that interview been done on September 10, 
2001 and reviewed later in that week, it would have sent--it 
would have sounded a lot less hyperbolic.
    So from that I take a lesson in context, which is, right 
now, through the very Classified briefings that you and 
Congressman King and the other Members of the Homeland Security 
Committee sit in, we are seeing an unraveling of a security 
picture that seems very far away in places like Iraq and Libya 
and Syria, and we are seeing the emergence of a group of new 
potential Osama bin Ladens who are claiming leadership and 
ability to extend their reach and power in terms of threat and 
action.
    So I would like to commend my fellow first responders at 
the table for their continued attention, heroism, and 
commitment for what they do, because more than a decade after 
9/11 the threat stream is not an awful lot brighter and the 
picture is changing minute-to-minute.
    I commend the committee and thank you all, individually and 
as a group, for the support, perspective, and wisdom you bring 
to this fight.
    Chairman McCaul. Well let me just say, sir, thank you for 
sharing that very powerful story and reminder that the threat 
is still, unfortunately, very much alive and well.
    I see we had one Member show up at the last minute.
    Mr. Vela, would you like to be recognized for questions?
    Okay.
    Did the Ranking Member have any additional questions?
    With that, I want to thank the distinguished witnesses for 
your compelling testimony. It is very helpful to this 
committee.
    Without objection, this committee stands adjourned.
    [Whereupon, at 11:57 a.m., the committee was adjourned.]










                            A P P E N D I X

                              ----------                              

       Questions From Chairman Michael T. McCaul for John Miller
    Question 1a. How can we improve the sharing of information 
developed in a JTTF to outside organizations, such as State and local 
law enforcement, and fusion centers?
    Answer. This would have to be done very carefully. JTTFs are both 
collectors and consumers of intelligence, but the primary role of the 
JTTF is to run investigations. The primary role of fusion centers is 
not to do investigations (this is always a temptation, because 
everybody wants to be in the game) but to do analysis and share that. 
Once a fusion center becomes a detective squad doing investigations, it 
loses its focus on the analysis role. In the same vein, a JTTF should 
not become the font of intel to the State and local police units.
    Question 1b. Perhaps some sort of integration between JTTFs and 
fusion centers?
    Answer. The best model I have seen is in Los Angeles. The LA 
Regional Intelligence Center (J-RIC). At the JRIC, they have an ``all 
crimes, all hazards'' approach. They deal with crime and CT. This is 
reinforced by the theory that many terrorist plots had their roots in 
other crimes. The FBI has embedded the ``Threat Squad'' there. By doing 
this, the FBI Threat Squad takes all the incoming threat info and teams 
up with local officers who run the leads on the ground. This keeps the 
fusion center in the loop. At the same time FBI analysts are embedded 
on the Classified side of the fusion center. This way, the JTTF does 
its job on the main cases. The Threat Squad runs out all the leads 
keeping the fusion center involved. The fusion center does its job by 
providing threat info and analysis tailored to the community it serves.
    Question 1c. Do you have any other suggestions as to how we can 
make the best use of the resources in the fusion centers.
    Answer. All fusion centers should be ``All Threats,'' meaning they 
should study, collect, and analyze intel on all crimes.
    Questions From Chairman Michael T. McCaul for James H. Schwartz
    Question 1a. How can we improve the sharing of information 
developed in a JTTF to outside organizations, such as State and local 
law enforcement, and fusion centers?
    Question 1b. Perhaps some sort of integration between JTTFs and 
fusion centers?
    Question 1c. Do you have any suggestions as to how we can make the 
best use of the resources in the fusion centers?
    Answer. This question concerns the relationship between the JTTFs 
and fusion centers. As the Nation has invested in the development of 
fusion centers, it is fair to say that a division of labor or 
relationship needs to be better defined between the JTTFs and fusion 
centers. While a few like the Los Angeles JRIC are very good at 
integrating the fusion center and JTTF missions, my experience is that 
that is not the case in many fusion centers.
    In the National Capital Region (NCR), there are examples of good 
coordination between the FBI Washington, DC field office and the 
Northern Virginia Regional Intelligence Center (NVRIC). However, as I 
testified, there is a long-standing history of the field office working 
with local fire and EMS departments that could be replicated in all 
field offices. This relationship was a key component during the 
response to the 9/11 incident at the Pentagon where critical 
intelligence was shared in the command post and influenced numerous 
decisions. Even now, the field office hosts twice-monthly conference 
calls in which they include the fire chiefs of the NCR to update them 
on threats and operations. Over the last 13 years every piece of 
significant information that I have received as a local official, 
information that caused me to rethink my preparedness efforts, has come 
from the FBI. Information that which has been provided by the fusion 
center has in every instance been that already provided by the Bureau 
or was available in open sources, normally the news media.
    It is worth assessing whether the return on investment from fusion 
centers is worth the cost. More than a decade after their formation 
across the Nation many fusion centers have shifted the majority of 
their focus to ``all crimes'' which may be appropriate given the real 
but relatively small threat from terrorism when compared to daily crime 
in many communities. In these centers there is often a close link with 
the investigation functions separate from the JTTF. Consideration 
should be given to letting fusion centers focus on local and regional 
crime, which was the role of criminal intelligence before 9/11, and 
requiring that when there is a terrorism nexus, the issue be turfed to 
the JTTF who would then be responsible for coordinating with locals. 
Additionally the practice of adding fire/EMS representatives to the 
JTTF as is done in New York and Los Angeles, should become standard 
practice. Redirecting some of the resources now dedicated to a murky 
mission in the fusion center to a JTTF would not only facilitate 
greater information sharing with locals but would provide the Bureau 
with an operational perspective many do not currently have.
    Question 2a. Many fusion centers have developed Terrorism Liaison 
Officer (TLO) programs, which are one way ``non-traditional partners,'' 
including the fire service and EMS, can gain situational awareness on 
current terrorist tactics, techniques, and practices.
    Question 2b. Do your departments have dedicated Terrorism Liaison 
Officers?
    Answer. In general, there are a number of good TLO programs across 
the Nation. The cities of Phoenix, Arizona and Los Angeles, California 
probably have the best example of a TLO program.
    In NCR, we do not have a TLO program. The Northern Virginia region 
has placed a fire/EMS representative at the NVRIC and developed a fire 
chief's intelligence committee that works closely with the fusion 
center representative. However, fire and EMS participation at the NVRIC 
is limited to that person. We are not allowed to provide substitutes 
when the representative takes leave, or add extra staffing (even though 
the jurisdictions have offered to cover the cost of additional fire and 
EMS representatives) and there is no executive representation from the 
fire and EMS community on the NVRIC governing board. This issue can 
present problems in developing a strong relationship between the fusion 
center and fire departments that it serves.
    Question 2c. Do your local fusion centers provide training to the 
TLOs on how to properly report suspicious activities that may be 
observed on call?
    Answer. The Arlington County Fire Department developed a suspicious 
activity reporting (SAR) policy many years ago, and it was adopted by 
other agencies in the Northern Virginia region. Training has been 
provided to all personnel in the region. Any suspicious activity is 
reported to both the Fire/EMS representative at the NVRIC and local law 
enforcement agencies, which have representatives at the JTTF.
       Questions From Chairman Michael T. McCaul for James Hooley
    Question 1a. How can we improve the sharing of information 
developed in a JTTF to outside organizations, such as State and local 
law enforcement, and fusion centers?
    Perhaps some sort of integration between the JTTFs and fusion 
centers?
    Question 1b. Do you have any other suggestions as to how we can 
make the best use of the resources in the fusions centers?
    Answer. Let me begin by describing the relationship of my 
department, Boston Emergency Medical Services (Boston EMS), with the 
local fusion center and the JTTF. Boston EMS is what has been described 
as a ``non-traditional partner'' within the Boston Regional 
Intelligence Center (BRIC), the city's fusion center, located at the 
Boston Police Department (BPD). Boston EMS has had a paramedic assigned 
to the BRIC full-time, 5 days a week, since 2007.
    Boston EMS is a member of the Massachusetts Anti-Terrorism Advisory 
Committee, which is co-chaired by the U.S. Attorney for Massachusetts 
and the SAC of FBI Boston. Although we are not a member of the JTTF, 
several BPD members from the BRIC, with whom we work with regularly, 
are assigned to the JTTF. From my perspective, our law enforcement 
partners at the BRIC are integrated at the JTTF and EMS depends on 
those officers to represent us at the JTTF, much like other non-
traditional partners, such as public health and fire services. I do 
think that the BRIC representatives to the JTTF would be comfortable 
sharing information they receive from the JTTF with EMS, as security 
levels permit. Having said this, I believe the JTTF would be more 
likely to share information once they determine it necessary. It is my 
hope that the JTTF's look beyond law enforcement, to understand the 
threat-intelligence needs of non-traditional partners and how soon they 
would require this information.
    The JTTFs should have regularly scheduled briefings with non-
traditional partners. This dialogue would promote better understandings 
of each other's needs. For example, if a JTTF were to comprehend the 
capacities, capabilities, or risks to EMS, hospitals, or public health 
departments, it may influence what information they share and when they 
choose to do so.
    Another suggestion on how to best use resources from fusion centers 
is to establish practices that streamline the ability to take higher-
security classification material and revise it to a level where it can 
be disseminated to more stakeholders.
    As a hypothetical (non-terrorism) example, imagine the FBI or DEA 
issues a Law Enforcement Sensitive report warning of a serious 
contamination or additive to illicit drugs being trafficked on the 
streets. Security requirements would prohibit the representative from 
sharing this information with non-law enforcement personnel, including 
EMS field providers, drug outreach workers, hospital emergency 
department clinicians or poison control center staff. There is a 
process to review and redact information that would lower it to FOUO, 
allowing it to be shared at lower levels. Admittedly I am not familiar 
with the time required for such approval or any remaining limitations 
on sharing. I would recommend that JTTFs and fusion centers discuss and 
plan for a process by which information can be shared with necessary 
public safety, public service, and public health and health care 
entities, as appropriate, to ensure the right information gets to the 
right people in sufficient time to meet the desired objective of 
protecting the public.
    Question 2a. Many fusion centers have developed Terrorism Liaison 
Officer (TLO) programs, which are one-way ``non-traditional partners,'' 
including the fire service and EMS, can gain situational awareness on 
current terrorist tactics, techniques, and practices. Do your 
departments have dedicated Terrorism Liaison Officers?
    Question 2b. Do your local fusion centers provide training to the 
TLOs on how to properly report suspicious activities that may be 
observed on a call?
    Answer. I have read about various Terrorism Liaison Officer 
programs in other jurisdictions. Boston EMS does not have a dedicated 
TLO per se, however, our EMS liaison at the BRIC has been offered and 
received several DHS and other agency-sponsored trainings. This 
includes but is not limited to analyst trainings, conferences, 
exercises, training in the proper handling of Classified materials, a 
security clearance, suspicious activity reporting, and regularly 
receiving bulletins and briefings that may be of interest to EMS. In 
his capacity as our representative to the BRIC he will train our 
personnel in the field on what they should look for and consider 
reporting. Our EMS representative at the BRIC does not enter SAR data 
directly into the database. He provides the data to staff at the BRIC 
who vet the information and decide whether to enter it. The EMS 
representative will also share information from threat assessments, 
particularly as they relate to large public gatherings or events, to 
EMS providers in the Metro Boston Homeland Security Region as well as 
the hospitals and public health agencies.
    Currently, the BRIC is working to develop the TLO concept and bring 
in more non-traditional partners. I wish to emphasize that although it 
is important to receive the necessary training and clearances to 
participate in a fusion center; those are only the first steps. To be 
truly effective as a member of a fusion center, law enforcement and 
non-traditional members must be trusted members of the team. They 
should be present for the daily briefings. They should have access to 
analysts, GIS specialists, the Sensitive Compartmented Information 
Facility when needed and other resources at the fusion center, as our 
EMS representative has. Developing that relationship as a trusted agent 
in a fusion center will enhance the likelihood that critical 
information is shared and utilized, not merely collected.
       Questions From Honorable Susan W. Brooks for James Hooley
    Question 1. In 2012, FEMA reduced the period of performance for 
grants from 3 years to 2 in an effort to address the amount of funding 
that had yet to be drawn down by grant recipients. Has the reduction in 
the period of performance had an impact on your ability to expend the 
grant funds on projects that truly address your capability gaps?
    Answer. The FEMA-reduced period of performance for grants from 3 
years to 2 has presented a significant challenge to the Metro Boston 
Homeland Security Region, negatively impacting the ability to develop 
and sustain core capabilities. This approach is creating a bias towards 
buying more assets, rather than implementing the life-cycle planning 
envisioned by the National Preparedness Goal.
    Prudent grant management requires extensive procedures allowing for 
accountability and compliance as funding is transferred from the 
Federal level to the State, from the State to the region, and then from 
the region to a local department or a vendor, in addition to EHP 
reviews. While each step is in many respects essential, they can create 
time-consuming delays and chokepoints.
    With each investment, extensive effort is placed on determining how 
best to spend the grant dollars. Regrettably, a 2-year grant cycle 
leaves minimal time for the final and most essential step of spending 
the grant funding. Investments in planning, exercises, and systems 
development take time and an on-going commitment of stakeholders, in 
identifying appropriate contractors and in managing the work through to 
completion. With the 2-year grant cycle and no extensions, we have 
found ourselves again and again in a position where investments must be 
prioritized based on their time to completion, rather than their 
benefit to the region, resulting in a disproportionate investment in 
equipment. While funding may be spent in a timelier manner, the 
downstream effect has been a compromise to the overall objectives of 
the grant.
    As a first responder, I see the direct benefit of the Homeland 
Security grant funding. Being mindful of how each dollar is invested 
impacts our safety and our ability to protect the public. On April 15, 
2013, we were able to utilize not just the equipment, but also the 
years of planning, exercises, training, and preparedness to maximize 
life-saving efforts. As the chief, I also oversee our operational 
budget; I understand the challenges associated with fiscal 
accountability and the need to work within stringent annual time lines. 
Ultimately, it is my hope that we can work toward building efficiencies 
within the grant management process to reduce delays, but also allow 
the awarding jurisdiction sufficient time to effectively meet the goals 
of the grant.
    Question 2. FEMA has indicated that it would be willing to 
``reevaluate the feasibility and appropriateness of returning to a 3-
year period of performance.'' Provided we can ensure that an efficient 
and effective draw-down of these grant funds continues, would you be 
supportive of a return to a 3-year period of performance?
    Answer. I, and the Metro Boston region as a whole, would be in full 
support of the return to a 3-year period of performance. It would 
enhance our ability to meet our preparedness goals. Adequately 
addressing an identified capability gap includes developing a strategy 
that will incorporate planning, training, and exercising, in addition 
to equipment.
 Questions From Chairman Michael T. McCaul for Brian A. Jackson \1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a non-
profit research organization providing objective analysis and effective 
solutions that address the challenges facing the public and private 
sectors around the world. RAND's publications do not necessarily 
reflect the opinions of its research clients and sponsors.
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT411z1.html.
---------------------------------------------------------------------------
applying lessons learned from past response operations to strengthening 
                     national preparedness addendum
    Question 1a. How can we improve the sharing of information 
developed in a JTTF to outside organizations, such as State and local 
law enforcement, and fusion centers?
    Question 1b. Perhaps some sort of integration between JTTFs and 
fusion centers?
    Question 1c. Do you have any other suggestions as to how we can 
make the best use of the resources in the fusion centers?
    Answer. The sharing of information from JTTFs to other 
organizations clearly has to be done with care, given concerns 
regarding maintaining the integrity of criminal investigations and 
eventual prosecution. This has been a challenge identified for domestic 
intelligence more generally, not just with respect to the JTTFs.\3\ A 
recent report by three of my RAND colleagues based on discussions with 
a number of State and local law enforcement officials took on the issue 
of JTTFs and intelligence sharing directly. Though the group was not a 
scientific sample of the community, it did represent a set of senior 
representatives from a number of major departments and agencies at 
varied levels of government.\4\ Those participants highlighted 
continuing challenges with the interaction between JTTFs and local law 
enforcement, as well as complaints about the nature of the information 
that was shared. There was also the suggestion of some local 
departments pulling back from participation in JTTFs because of 
perceptions of continuing information-sharing problems.
---------------------------------------------------------------------------
    \3\ Jackson, BA., ed., ``The Challenge of Domestic Intelligence in 
a Free Society: A Multidisciplinary Look at the Creation of a U.S. 
Domestic Counterterrorism Intelligence Agency,'' Santa Monica, Calif., 
RAND Corporation, 2009.
    \4\ Jenkins, B.M., A. Liepman, H.H. Willis, ``Identifying Enemies 
Among Us: Evolving Terrorist Threats and the Continuing Challenges of 
Domestic Intelligence Collection and Information Sharing,'' Santa 
Monica, Calif., RAND Corporation, 2014.
---------------------------------------------------------------------------
    Questions were also raised in those discussions about the 
effectiveness of information sharing between fusion centers and police 
departments, though there is clearly variation across the country. The 
group specifically took on the question of whether fusion centers could 
be used to better link JTTFs to State and local police departments, and 
few participants thought that was the right solution. Differences that 
exist between fusion centers also make it hard to generalize--and the 
absence of good and objective measures of what they are producing means 
that there isn't a common yardstick to use to identify, for example, 
particularly effective fusion centers as candidates to potentially play 
this bridging role. In the absence of such measures, seeking to use 
fusion centers in that sort of bridging function could be piloted in 
one or more sites to assess the viability and effectiveness of the 
approach.
    More systematic measures and assessment of fusion centers would 
also make it possible to better identify what resources currently exist 
in individual centers--which are generally viewed to vary considerably 
in capability across the country--and is a needed first step to 
determine how they could be better leveraged. Following the 2012 Senate 
report on the fusion center program,\5\ some researchers--including at 
RAND--have made progress to developing methods for such evaluation.\6\
---------------------------------------------------------------------------
    \5\ Permanent Subcommittee on Investigations, Committee on Homeland 
Security and Governmental Affairs, United States Senate, ``Federal 
Support for and Involvement In State and Local Fusion Centers,'' 
Majority and Minority Staff Report, Washington, DC, October 3, 2012.
    \6\ For example, Jackson, B.A., ``How Do We Know What Information 
Sharing is Really Worth?'' Santa Monica, Calif., RAND Corporation, 
2014.
---------------------------------------------------------------------------

                                 [all]
</pre></body></html>
